<html>
<title> - EMERGENCY OPERATIONS PLANNING AND RESPONSE IN THE METROPOLITAN WASHINGTON AREA</title>
<body><pre>[Senate Hearing 107-255]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 107-255
 
    EMERGENCY OPERATIONS PLANNING AND RESPONSE IN THE METROPOLITAN 
                            WASHINGTON AREA
=======================================================================




                                HEARING

                                before a

                          SUBCOMMITTEE OF THE

            COMMITTEE ON APPROPRIATIONS UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION
                               __________

                            SPECIAL HEARING

                   NOVEMBER 14, 2001--WASHINGTON, DC
                               __________

         Printed for the use of the Committee on Appropriations










 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate
                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
77-366                       WASHINGTON : 2002
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001












                      COMMITTEE ON APPROPRIATIONS

                ROBERT C. BYRD, West Virginia, Chairman
DANIEL K. INOUYE, Hawaii             TED STEVENS, Alaska
ERNEST F. HOLLINGS, South Carolina   THAD COCHRAN, Mississippi
PATRICK J. LEAHY, Vermont            ARLEN SPECTER, Pennsylvania
TOM HARKIN, Iowa                     PETE V. DOMENICI, New Mexico
BARBARA A. MIKULSKI, Maryland        CHRISTOPHER S. BOND, Missouri
HARRY REID, Nevada                   MITCH McCONNELL, Kentucky
HERB KOHL, Wisconsin                 CONRAD BURNS, Montana
PATTY MURRAY, Washington             RICHARD C. SHELBY, Alabama
BYRON L. DORGAN, North Dakota        JUDD GREGG, New Hampshire
DIANNE FEINSTEIN, California         ROBERT F. BENNETT, Utah
RICHARD J. DURBIN, Illinois          BEN NIGHTHORSE CAMPBELL, Colorado
TIM JOHNSON, South Dakota            LARRY CRAIG, Idaho
MARY L. LANDRIEU, Louisiana          KAY BAILEY HUTCHISON, Texas
JACK REED, Rhode Island              MIKE DeWINE, Ohio
                  Terrence E. Sauvain, Staff Director
                 Charles Kieffer, Deputy Staff Director
               Steven J. Cortese, Minority Staff Director
            Lisa Sutherland, Minority Deputy Staff Director
                                 ------                                

                Subcommittee on the District of Columbia

                 MARY L. LANDRIEU, Louisiana, Chairman
RICHARD J. DURBIN, Illinois          MIKE DeWINE, Ohio
JACK REED, Rhode Island              KAY BAILEY HUTCHISON, Texas
                           Professional Staff
                            Charles Kieffer
                              Kate Eltrich
                        Mary Dietrich (Minority)










                            C O N T E N T S

                              ----------                              
                                                                   Page
Opening Statement of Senator Mary L. Landrieu....................     1
    Prepared statement...........................................     3
Statement of Senator Mike DeWine.................................     4
Statement of Senator Jack Reed...................................     5
Statement of Hon. Anthony A. Williams, Mayor, District of 
  Columbia.......................................................     6
Accompanied by:
    Margret Nedelkoff Kellems, Deputy Mayor for Public Safety and 
      Justice, District of Columbia..............................     6
    Peter LaPorte, Director, Emergency Management Agency, 
      District of Columbia.......................................     6
    Richard A. White, General Manager, Washington Metropolitan 
      Area Transit Authority.....................................     6
    Michael Rogers, Executive Director, Metropolitan Washington 
      Council of Governments, District of Columbia...............     6
    Ronnie Few, Chief, Department of Fire and Emergency Medical 
      Services, District of Columbia.............................     6
    Charles H. Ramsey, Chief, Metropolitan Police Department, 
      District of Columbia.......................................     6
    Dr. Ivan C. A. Walks, Director, Department of Health, 
      District of Columbia.......................................     6
District of Columbia Taskforce...................................     7
DC Taskforce Subcommittees.......................................     7
Operational Emergency Response...................................     8
First Responders.................................................     8
Emergency Communication Coordination.............................     8
Level 3 Emergency Response.......................................     9
Joint Information Center.........................................     9
Table Top Exercises..............................................    10
Emergency Preparedness Investment................................    10
Projected Revenue Losses.........................................    11
Prepared Statement of Mayor Anthony A. Williams..................    12
Emergency Preparedness and Response..............................    13
Short Term Investment in Emergency Preparedness..................    15
Long-Term Fiscal Assistance......................................    15
Prepared Statement of Michael Rogers.............................    16
The Steps COG Has Taken..........................................    18
Prepared Statement of Richard White..............................    19
Request for Security Funding.....................................    20
Emergency Planning in the National Capital Region................    20
Statement of Linda W. Cropp, Chairman, Council of the District of 
  Colum-bia......................................................    21
    Prepared statement...........................................    24
Questions Submitted by Senator Mary L. Landrieu..................    43
Questions Submitted to Mayor Anthony A. Williams.................    43
Questions Submitted to Deputy Mayor Margret Kellums..............    45
Questions Submitted to Chief Ronnie Few..........................    46
Question Submitted to Chief Charles H. Ramsey....................    47
Question Submitted to Dr. Ivan C. A. Walks.......................    47















    EMERGENCY OPERATIONS PLANNING AND RESPONSE IN THE METROPOLITAN 
                            WASHINGTON AREA

                              ----------                              


                      WEDNESDAY, NOVEMBER 14, 2001

                               U.S. Senate,
              Subcommittee on District of Columbia,
                               Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 2:35 p.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Mary L. Landrieu (chairman) 
presiding.
    Present: Senators Landrieu, Reed, and Dewine.


             opening statement of senator mary l. landrieu


    Senator Landrieu. Good afternoon, everyone, and our 
subcommittee will come to order. I welcome you all to this 
hearing on the District of Columbia's emergency operations 
planning and the city's request for emergency supplemental 
funding in the wake of the terrible attacks against our country 
on September 11.
    On that day, terrorists destroyed or partially destroyed 
some of the great symbols of America's economic success and 
military strength, the World Trade Center in New York City, and 
the Pentagon across the Potomac, without the intervention of 
several brave individuals we could have, in fact, seen, 
according to subsequent investigations, some tragedy here in 
the District itself.
    Since then, all Americans have vowed that these cowardly 
acts will not dampen our spirit, will not shake our belief in 
freedom and democracy. The safety, security, and financial 
strength of the District of Columbia, our Nation's Capital, 
serves as a vital symbol of this national resolve. Given its 
importance as a national symbol, and as the anthrax attacks of 
recent weeks have shown, Washington, D.C. remains a target for 
terrorism.
    As we all; know, D.C. is more than just a symbol. It is 
more than just a cluster of Government buildings. The District 
of Columbia is also a living, breathing city of over one-half 
million people, with the fire and medical services department 
that was first on the scene at the Pentagon, and a police 
department that provided security and directed the movements of 
hundreds of thousands of people out of the city, back to their 
homes, when the Federal Government and other offices were 
closed down after the attacks.
    The city's department of health has been on the front line 
in responding to anthrax attacks. Mayor Williams, Deputy Mayor 
for Public Safety Margret Kellems, and the heads of these 
departments are all here today to testify. We want to thank you 
for your work on behalf of the citizens of the District, the 
residents that are here, and the workers that work in the 
District every day. You were working on that day, and continue 
to work under unprecedented, extraordinarily difficult 
circumstances.
    I must also give a personal thanks to all of you, because 
my second home is D.C. My family is here. My husband and our 
two children live here with me. For them, and for all the 
families in the District, I wanted to say thank you for your 
work.
    The terrible attacks were a learning experience for all of 
us, but especially for the District government. In the days 
after the attacks, local officials and media began to detail 
some of the shortfalls in the present emergency protocol. 
Specifically, articles in the Washington Post highlighted the 
need for coordinated and timely communication between Federal 
and local law enforcement officers, coordinated evacuation 
plans for the 180,000 Federal employees housed in the District, 
and the release of accurate and timely emergency information 
and instructions to the public.
    Correcting these shortfalls cannot take place in a vacuum. 
There must be coordination and emergency planning between the 
District and the surrounding States and local jurisdictions in 
Virginia and Maryland, as well as coordinated planning with 
Metro, the Washington Metropolitan Area Transit Authority.
    I look forward to all of our witnesses' testimony on this 
issue. I am pleased that Peter LaPorte, the Director of the 
District's Emergency Management Agency is here today, along 
with Michael Rogers from the Metropolitan Washington Council of 
Governments, for his testimony. I hope that he will be with us.
    I anticipate the need for at least one additional hearing 
to examine how the District can work with surrounding 
communities on a seamless emergency plan for the entire region, 
which I believe is crucial for our future and the fact that 
this city and region will probably, unfortunately, remain a 
target.
    As I mentioned, the District of Columbia remains a target 
for potential terrorism, more so than many other cities in this 
country, because of the Federal Government's presence, because 
this city is the Nation's Capital, because of the monuments and 
the symbols that are here.
    Mr. Mayor, you have submitted to us a request for more than 
$250 million in emergency preparedness funding. There is a 
wide-ranging and comprehensive proposal to acquire a special 
hazardous material handling and detection equipment for the 
city's police, fire, and emergency medical services and public 
works department, improved communication equipment and other 
technologies for city agencies, as well as a comprehensive 
terrorist response training team, urban search and rescue 
equipment, and a number of other important items.
    Some might argue that the District should already have some 
of this equipment and Congress should not provide funding for 
such request. Others would argue that, as the Nation's Capital, 
the city deserves and requires extra help to protect its 
citizens and employees from potential harm.
    I understand that the District does have hazmat equipment 
to handle isolated chemical spills or accidents, but it is not 
equipped for large-scale chemical or biological attacks or the 
destruction of the scale of which we saw in New York City.
    With my Ranking Member, Senator DeWine, and with my 
committee members, particularly Senator Reed, we want to work 
with you to develop a comprehensive emergency operation plan 
that protects the people who live, work, and visit the District 
of Columbia every day, and also effectively manages Federal 
resources that may become available to you for this end.


                           prepared statement


    I look forward to the presentations today. Let me welcome 
all of you. Let me ask my Ranking Member and Senator Reed for 
their opening comments at this time, then we will have 
presentations from each panel member, and then enter into a 
period of questions.
    Thank you all very much for being here for this important 
hearing.
    [The statement follows:]

             Prepared Statement of Senator Mary L. Landrieu

    Welcome to this hearing on the District of Columbia's emergency 
operations planning and the City's request for emergency supplemental 
funding in the wake of the attack against the United States on 
September 11, 2001. On that day, terrorists destroyed, or partially 
destroyed, some of the great symbols of America's economic success and 
military strength: the World Trade Center in New York City and the 
Pentagon, across the Potomac River in Arlington, Virginia.
    Since then, Americans have vowed that these cowardly acts will not 
dampen our spirit and will not shake our belief in freedom and 
democracy. The safety, security, and financial strength of the District 
of Columbia--our Nation's Capital--serves as a vital symbol of this 
national resolve. Given its importance as a national symbol, and as the 
anthrax attacks of recent weeks have shown, Washington, D.C. remains a 
target for terrorism.
    As we all know, Washington, D.C. is more than just a symbol. It's 
more than just government buildings. The District of Columbia is also a 
living, breathing city of over half a million people with a Fire and 
Emergency Medical Services Department that was first on the scene at 
the Pentagon and a Police Department that provided security and 
directed the movement of hundreds of thousands of people out of the 
City and back to their homes when the Federal Government and other 
offices closed down after the attacks. The City's Department of Health 
has been on the front line in responding to the anthrax attacks.
    Mayor Williams, Deputy Mayor for Public Safety, Margret Kellems, 
and heads of these departments: Fire and EMS Chief Ronnie Few, Police 
Chief Charles Ramsey, and Doctor Ivan Walks, Director of the District's 
Department of Health all deserve our thanks. Thank you all for being 
here today. You were working--and continue to work--under unprecedented 
and extraordinarily difficult circumstances. I must also give a 
personal thanks to all of you. D.C. is my second home. My family, my 
husband and our two children, live here with me. For them, and all the 
families in the District, I say thank you.
    The attacks were a learning experience for all of us, but 
especially for the District government. In the days after the attacks, 
local officials and the media began to detail some of the shortfalls in 
the present emergency protocol. Specifically, articles in the 
Washington Post highlighted the need for coordinated and timely 
communications between Federal and local law enforcement officers; 
coordinated evacuation plans for the 180,000 Federal employees housed 
in the District; and the release of accurate and timely emergency 
information and instructions to the public.
    Correcting these shortfalls can't take place in a vacuum. There 
must be coordination in emergency planning between the District and the 
surrounding State and local jurisdictions in Virginia and Maryland, as 
well as coordinated planning with Metro, the Washington Metropolitan 
Area Transit Authority. I look forward to our witnesses' testimony on 
this issue. I am pleased that Peter LaPorte, the Director of the 
District's Emergency Management Agency is here, and Michael Rogers from 
the Metropolitan Washington Council of Governments are available to 
discuss the regional planning effort. I anticipate the need for at 
least one additional hearing to examine how the District can work with 
the surrounding communities on a seamless emergency plan for the entire 
region.
    As I mentioned, the District of Columbia remains a target for 
potential terrorism, more so than many other cities in this country 
because of the Federal Government's presence. The Mayor has submitted 
to the Congress a request for more than $250 million in emergency 
preparedness funding. It is a wide-ranging and comprehensive proposal 
to acquire specialized hazardous material handling and detection 
equipment for the City's police, fire, EMS and public works 
departments; improved communications equipment and other technology for 
City agencies; as well as comprehensive terrorist response training, 
urban search and rescue equipment, and a number of other important 
items.
    Some might argue that the District should already have some of this 
equipment and that Congress should not provide funding for the request. 
Others would argue that as the Nation's Capital, the City deserves and 
requires extra help to protect its citizens from potential terrorist 
harm. I understand that the District does have Hazmat equipment to 
handle isolated chemical spills or accidents, but it is not equipped 
for a large scale chemical or biological attack or destruction on the 
scale of what we saw in New York City.
    My colleague Senator DeWine, the Ranking Member of the 
Subcommittee, and I are committed to helping the District in this 
regard as it develops a comprehensive emergency operations plan that 
protects the people who live, work, and visit the District of Columbia 
everyday, but also effectively manages any Federal resources that 
become available.
    I look forward to the presentations today. Let me thank our guests, 
Mayor Williams, who will testify on behalf of the City, Council 
Chairman Linda Cropp, Michael Rogers from the Metropolitan Area Council 
of Governments, and the heads of District's key emergency response 
agencies for being here today.

    Senator DeWine.

                    STATEMENT OF SENATOR MIKE DEWINE

    Senator DeWine. Senator Landrieu, thank you very much for 
holding this very important hearing. This committee, under your 
chairmanship, has focused on many important issues, but 
certainly one of the issues that we have focused on is 
children, and as we have today's hearing and hearings in the 
future, as we look at the District of Columbia's needs in 
regard to preparation for potential terrorist actions, we need 
to pay particular attention to the children.
    There are obviously sizeable differences between adults and 
children, both physical and emotional differences. As we say, 
children are not just small adults. They do have unique needs, 
which means that in the event of additional terrorist attacks, 
I believe we must be prepared to treat both adults and children 
and understand the difference between the two.
    Obviously, children are smaller than adults, they are lower 
to the ground, which could put them in the direct path of some 
agents like chlorine or sarin gas, both of which are heavier 
than air and settle lower to the ground, where children would 
be breathing.
    Children breathe faster than adults, which means they will 
inhale poisons and chemicals more quickly than adults. Children 
often cannot swallow pills, and so we need to make sure that we 
have antibiotics or other medicines that are in forms like 
liquids that children can take.
    Children lose body heat faster than adults, and so if a 
child needed a decontamination shower as a result of a chemical 
attack, firefighters emergency crews would need to take special 
precautions for these children, such as setting up heat lamps 
to keep them warm, so they do not go into shock.
    It also means providing those children with a safe, 
comfortable environment to ease their fears.
    These are the kinds of things that we must take into 
account as we assess the needs of our emergency response teams. 
That is why today, Senators Dodd and Collins and I are 
introducing legislation to help protect children from future 
terrorist attacks. Our bill would make sure that those on the 
front lines are prepared to treat and deal with child 
casualties. We need to make sure that they are trained about 
the differences between adults and children and, furthermore, 
we need to make sure that first responders have equipment that 
works on children, such as smaller needles, smaller oxygen 
masks.
    Madam Chairman, in addition to making sure that the 
children in the District are protected, we are working on other 
efforts. I am very pleased that in our recently passed fiscal 
year 2002 D.C. appropriations bill, we were able to include $16 
million to provide security protection for those living and 
working in the District of Columbia. The September 11 Pentagon 
bombing clearly demonstrated the need in the District to have 
that integrated emergency management system in place. This 
funding would pay for a coordinated emergency plan for the 
District in cases of national security situations, including 
terrorist threats, natural disasters, or other unanticipated 
events.
    Madam Chairman, of course, as you know, the bill also 
includes funding for the local, Federal police mobile wireless 
interoperability project, which would provide equipment to 
facilitate direct communication between the D.C. Metropolitan 
Police, U.S. Secret Service, U.S. Park Police, and U.S. Capitol 
Police.
    In the next few weeks, we will be considering an emergency 
supplemental appropriations bill that will provide additional 
funds so that we may continue to recover, rebuild, and reassess 
our Nation's ability to respond to future terrorist attacks.
    I want to thank our panel for being here. We are involved, 
of course, in providing some funds for the District of 
Columbia, but you are the ones who are on the front line every 
day. You are the ones who make a difference. You are the ones 
who have to make the very, very tough and critical decisions, 
so we thank you for being here. We have a great deal of respect 
for you, and we look forward to hearing your testimony.
    Senator Landrieu. Thank you, Senator DeWine, for that 
excellent statement, and I so appreciate your comments about 
helping us to be more sensitive as we design programs to make 
sure they are designed well for adults and for children, 
meeting all their special needs, as you so beautifully 
outlined.
    Senator Reed.

                     STATEMENT OF SENATOR JACK REED

    Senator Reed. Thank you very much, Madam Chairman. Let me 
also commend you for holding this hearing, and commend the 
Mayor and his colleagues for their valiant efforts over the 
last several weeks. I suspect they knew a great deal about 
emergencies on September 10. They know quite a bit more now, 
not only the attack on the Pentagon, but the anthrax assault 
here in Washington.
    I think it is critical that we participate fully with you 
as you reevaluate your plans, refocus your attentions, and 
redirect resources so that the District of Columbia is prepared 
for any eventuality going forward and frankly, after September 
11 and the anthrax attacks, what we thought was unthinkable, 
sadly is more and more routine. It is important that we 
coordinate not only with you, but that you coordinate with your 
neighboring communities, and I know you are doing that.
    I hope through the series of hearings that the chairwoman 
has outlined, that we can not only sense what you need, but 
give you the resources to do the job. I had an opportunity to 
sit down with my colleagues in Rhode Island, the Governor, 
Lieutenant Governor, all of the emergency management people in 
Rhode Island. They have a good plan, but they have to exercise 
the plan, and they need a lot of money to provide the resources 
and the training to be effective responders. I would be 
surprised if you were not in the same position.
    But thank you very much, Mayor, and all of you, for your 
great work and effort.
    Thank you, Madam Chairman.
    Senator Landrieu. Thank you. Mr. Mayor, for your opening 
remarks, and Ms. Cropp, and then we will take questions and 
answers.
STATEMENT OF HON. ANTHONY A. WILLIAMS, MAYOR, DISTRICT 
            OF COLUMBIA
ACCOMPANIED BY:
        MARGRET NEDELKOFF KELLEMS, DEPUTY MAYOR FOR PUBLIC SAFETY AND 
            JUSTICE, DISTRICT OF COLUMBIA
        PETER LaPORTE, DIRECTOR, EMERGENCY MANAGEMENT AGENCY, DISTRICT 
            OF COLUMBIA
        RICHARD A. WHITE, GENERAL MANAGER, WASHINGTON METROPOLITAN AREA 
            TRANSIT AUTHORITY
        MICHAEL ROGERS, EXECUTIVE DIRECTOR, METROPOLITAN WASHINGTON 
            COUNCIL OF GOVERNMENTS, DISTRICT OF COLUMBIA
        RONNIE FEW, CHIEF, DEPARTMENT OF FIRE AND EMERGENCY MEDICAL 
            SERVICES, DISTRICT OF COLUMBIA
        CHARLES H. RAMSEY, CHIEF, METROPOLITAN POLICE DEPARTMENT, 
            DISTRICT OF COLUMBIA
        DR. IVAN C. A. WALKS, DIRECTOR, DEPARTMENT OF HEALTH, DISTRICT 
            OF COLUMBIA

    Mr. Williams. I want to thank you, Chairwoman Landrieu and 
Ranking Member DeWine, and Senator Reed, for your interest in 
this important topic and for calling this important hearing to 
talk about our overall emergency preparedness plans. We are 
grateful to all of you that you acknowledge that it is the 
local jurisdiction in this case, most immediately the Nation's 
Capital, that must perform the role as first responder in an 
emergency incident. As residents and visitors of our city, we 
have a responsibility to protect you and your families, and I 
welcome the opportunity to discuss three important concerns to 
you.
    First, I want to assure you that we have an emergency 
response plan that works and integrates all local, regional, 
and Federal partners.
    Second, we want to request your assistance in the short 
term to enhance our emergency preparedness infrastructure.
    And third, we request your support for the long haul, 
because as long as our Nation is at war our Nation's Capital 
and, I dare say, our other local jurisdictions will be at risk.
    Now, we must manage that risk. We can overcome that risk, 
but at risk we will be, both physically and financially.
    Now, I have submitted my full testimony for the record, and 
I would like to use my time with you this afternoon to discuss 
in detail our emergency preparedness planning, but before I do 
so, I think we cannot talk about emergency preparedness without 
once again acknowledging the heroism of the emergency 
responders in New York City and here in our area, who on 
September 11 I think showed us what public duty and honor is 
about and, as Mayor of our Nation's Capital, I want everyone to 
know that our thoughts and our prayers are with the people of 
New York, are with the people of Virginia and, most 
importantly, with their loved ones.
    Like all Americans, the leadership of the District never 
anticipated the evil of using a passenger airliner as a weapon 
of mass destruction, or using the U.S. mail as a conduit for 
terror. For us, like most Americans, the cowardice of the 
recent terrorism attacks galvanized our resolve to outthink, 
outsmart, and outplan any terrorism that targets the District 
of Columbia.

                     DISTRICT OF COLUMBIA TASKFORCE

    Immediately following September 11, I convened a task force 
of senior District officials to review and improve the 
District's emergency operations plan. This task force is 
updating and enhancing the District's responsiveness plan that 
describes the roles and responsibilities of District agencies 
for the overall delivery of disaster assistance, as well as 
their relationships with Federal agencies that may support them 
should the situation warrant Federal assistance.
    Our response plan also coordinates response and recovery 
activities with volunteer agencies active in disasters, area 
neighborhood community groups, and the business community.

                       DC TASKFORCE SUBCOMMITTEES

    As you know, there already exists a comprehensive Federal 
response plan. As a part of its work, my task force established 
subcommittees in each of the critical emergency support 
functions to mirror the Federal response plan. These emergency 
support functions include a transportation group to review 
current evacuation plans, a communications group tasked with 
planning and implementing the District's emergency 
communications needs, a law enforcement group tasked with 
ensuring the public order being maintained during a crisis, and 
a command and control group to oversee and coordinate all 
operational response.
    To ensure cross-jurisdictional coordination and effective 
resource-sharing, these subcommittees include representatives 
from all of the relevant Federal agencies, as well as--I 
emphasize this--officials from the surrounding jurisdictions in 
Maryland and Virginia. We are particularly grateful for the 
leadership provided by the Federal Emergency Management Agency, 
which has brought the resources and representation of the 
National Capital Region Response Team to the work of the 
District's task force.
    In addition, we are working closely with private sector 
organizations that are vital to our ability to respond in an 
emergency, including the American Red Cross and the Washington 
Area Hospital Association, and Dr. Walks in the question and 
answer period can talk about the role that our hospitals have 
played, working with us in a network, in the recent anthrax 
situation here in the District.

                     OPERATIONAL EMERGENCY RESPONSE

    The District response plan is always operative, and I 
emphasize that. It is always operative. It does not need to be 
activated. There is a contingency plan that merely needs to be 
implemented as required by the nature of the situation. This 
ensures that no matter when the incident occurs, or how serious 
the emergency is, appropriate response actions are immediately, 
instantaneously put into action. This means that there is no 
question of the appropriate response, and no confusion about 
what each of the many first responders should expect from their 
emergency response partners. This is a core of an effective 
response plan.

                            FIRST RESPONDERS

    Now, should disaster strike tomorrow, God forbid, two 
things happen immediately and concurrently. One, appropriate 
first responders, police, fire, emergency medical services or 
health care professionals are deployed to the scene to begin 
initial response and containment activities. Simultaneously, 
notification protocols are set into motion. My senior 
administration team and I are notified of the facts as they 
come in through any one of numerous redundant voice and data 
communications technologies. These systems are currently in 
place. Decisionmaking begins immediately, even as our first 
responders race to the scene.

                  EMERGENCY COMMUNICATION COORDINATION

    The District's emergency plan identifies the appropriate 
emergency support function leader for each type of emergency. 
In an emergency, each emergency support function leader is 
notified, as are a number of independent and nongovernmental 
agencies and organizations, including the D.C. public schools, 
the utilities companies, surrounding jurisdictions, emergency 
management agencies, and selected individuals in the Federal 
Government. The plan also identifies liaison personnel who are 
deployed to field command posts and Federal command centers as 
appropriate to facilitate effective communications, and I think 
this committee is right to emphasize the need for communication 
and coordination, and we certainly see the need for it. There 
is no way that we can defend adequately, let alone 
satisfactorily or optimally our Nation's Capital, unless we 
have that coordination.
    As I have mentioned many, many times, Madam Chair, you 
compare Rudy Giuliani's doing a brilliant job in New York City, 
but he has got 40,000 New York City's police officers working 
for him. We have a huge center of activity here, and potential 
targets here. I have approximately 4,000 officers, they are 
great officers, and I have great fire personnel, but there is 
no way we can meet the challenge unless we coordinate and 
communicate.
    Now, based on early information and assessment, I will make 
the decision as to the readiness level of the city. In 
addition, in normal operations there are three levels of 
readiness that we have patterned on the Federal levels, with 
level 3 being the most extreme crisis situation. This mirrors 
the Federal Government.

                       LEVEL 3 EMERGENCY RESPONSE

    During a level 3 emergency, I would activate the city's 
emergency operations center, or EOC. Under my leadership the 
District's emergency management team, which is primarily my 
agency directors, would assemble at the emergency operations 
center to manage the incident. We believe that in a Level 3 
situation we would also secure other key decisionmakers in the 
District for command and control purposes and for line of 
succession purposes. For example, the Council Chair and the 
Mayor would not be necessarily in the same place, and I am sure 
you can understand the reason for that.

                        JOINT INFORMATION CENTER

    The emergency operations center becomes a clearinghouse for 
critical operational information, and all requests for support 
resources being brokered through the EOC. In addition, the plan 
includes the establishment of a joint information center at the 
EOC that will manage all public communications during an 
incident. The EOC structure parallels that of both FEMA 
regional operations center, and the headquarters FEMA 
interagency emergency support team, allowing clear paths of 
communications between responders at the local, regional, and 
Federal level as well as with the general public.
    Each emergency support function is responsible for 
executing specific tasks that are detailed by the District 
response plan. The emergency support function leader on duty in 
the EOC coordinates information to and from the field, ensuring 
that decisionmakers and managers in the EOC have instant and 
accurate information.
    This structure in the EOC allows us to quickly determine 
the best staging area for each activity, and how to move people 
in emergency equipment in and out of town. Emergency evacuation 
and access routes are identified and incorporated in the 
District's response plan.
    The response plan identifies and evaluates the resources 
available at each potential staging area, as well as the 
requirements needed for each emergency support function, so, 
for example, the plan identifies which public schools have 
generators in the event of power loss, or where there are large 
parking areas that can serve as a biohazard decontamination 
center. We now have the mapping capability to prioritize and 
select the appropriate staging area for each function, as well 
as identify the access routes to and from these areas.
    The District's emergency plan anticipates that during a 
Level 3 emergency it may be necessary to declare a formal state 
of emergency, as authorized in the D.C. Code. In that 
circumstance, I would make a declaration of emergency, defining 
which authorities granted to me by law I would invoke to 
maintain order and safety in the city.
    If necessary, I would also request a presidential 
declaration of emergency or major disaster, and the 
implementation of the Federal response plan, the effect of 
which would be to make Federal support and assistance available 
through FEMA. This eliminates layers of bureaucracy and 
accelerates a Federal response.
    A small example of that happening actually happened this 
summer, when we had floods in the Bloomingdale section of our 
city. We moved very, very quickly to the scene. We requested of 
the President a presidential declaration of disaster, and I am 
pleased to say the Bush administration responded within hours 
of our request, and help was on the way to people in record 
time.

                          TABLE TOP EXERCISES

    We will exercise our plans and procedures until we are 
comfortable that we can execute our roles and responsibilities 
without hesitation. Last week, we took our emergency response 
plan for a test drive, if you will, during a table top 
exercise, and as in any test drive we found a lot of bugs in 
the car. We tested our notification procedure, evaluated early 
communications and decisionmaking during various emergency 
levels, and assessed our overall readiness levels. We are now 
making adjustments and further refinements, and we will test it 
over again shortly, and we will continue to test it until we 
have it to our level of satisfaction. We are encouraged that 
FEMA has agreed to participate in our next table top exercise, 
and we are extending the invitation to participate in these 
exercises to our neighboring jurisdictions.

                   emergency preparedness investment

    If I could, just for one final moment, talk about our 
investment in emergency preparedness, because while we work 
toward even better response and planning for a cataclysmic 
event, the day-to-day operations of our response activities are 
taking a toll on our city. In fact, the District incurs 
unbudgeted costs which may have an impact on our service 
delivery in the future. That is why we have included $250 
million for emergency preparedness in our $1 billion request 
for special appropriations.
    This request includes investment in protecting clothing, 
breathing apparatus, and specialized protection equipment for 
our first responders, police officers, fire emergency, medical 
and public health personnel in a chemical or biological 
emergency, heavy equipment such as urban search and rescue 
tools, a mobile laboratory for detecting chemical and 
biological risks, and containment units at local hospitals, 
specialized training for police, fire, and public health 
personnel, and finally, the technological and communications 
infrastructure to support front line emergency response 
communications.
    Each of these investments in my estimation are critical to 
protect the personnel that we depend on in an emergency, and to 
better serve the people who live and work in the District of 
Columbia. I want to emphasize to the committee, this is not a 
wish list, and I am sure this committee as appropriators have 
seen a lot of wish lists. I would argue to you in all 
sincerity, this is not your usual wish list, because without 
the full funding, you place me as Mayor, and you place our 
Council Chair in a very, very difficult position as hosts of a 
nightmare game show.
    Behind door number one is the ability to handle a 
bioterrorism threat such as anthrax. Behind door number two is 
the ability to conduct urban search and rescue should one of 
our major Federal centers be a target and sustain massive 
damage, and behind door number three is the ability to fight a 
fire of the magnitude of Monday's disaster in the Rockaways in 
New York City, and we are forced to pick one. This is not a 
choice any of us wish to make, and I ask you, if you were 
mayor, how would you decide to pick one of these doors? It is 
an impossible task.
    Meeting the challenges of today's reality is not going to 
be fast, it is not going to be easy, and it is not going to be 
without cost. With your support, I am committed to seeing that 
our city meets and exceeds the newly created national standards 
for emergency management and business continuity programs that 
are endorsed by FEMA, the National Emergency Management 
Association, and the International Association of Emergency 
Management.

                        PROJECTED REVENUE LOSSES

    Finally, the loss of revenue to the District since 
September 11 is staggering. We are projecting a $750 million 
hit to our economy, resulting in a loss of about $200 million 
in tax receipts. The economic impact felt here in the District 
has rippled throughout the regional economy, and I want to 
assure you that in the District we are closely monitoring our 
budget. We will not overspend the budget, not on my watch, and 
not on the watch of our District leadership, but it is a cause 
for concern.
    The District's economy will continue to be vulnerable as 
long as we must provide services to a city that serves 2 
million people each day with a tax base of only 572,000 
residents for support. This vulnerability is exacerbated by the 
fact that while our country is at war, our economic base, 
tourism, is threatened.
    Now, in my written testimony I have outlined three viable 
options that would begin to address the structural imbalance in 
the District's budget, and I have talked to this committee 
about this in the past. As I have in previous testimony, I will 
again today ask the Congress to give them serious 
consideration, because the District really should have the 
ability to compete on a level playing field, and compete it 
must, compete we are prepared to do, but we cannot compete 
effectively if half of our assets are tied up and offline.
    In closing, let me reiterate, we must stand united to make 
certain that our Nation's Capital is safe and open for 
business. We have developed an effective emergency plan that 
seamlessly meshes the resources of the District, Federal 
emergency agencies, independent partners, and the surrounding 
jurisdictions. We need your short-term support to raise our 
emergency response capability, and your long-term financial 
assistance so that our city may weather any crisis that may 
come.

                          prepared statements

    I want to thank you for the opportunity to testify to the 
committee. I want to thank the committee for its partnership 
with the District, and most immediately thank the committee for 
its concern for a very, very important topic in all of our 
lives and the way we do business.
    [The statements follow:]

            Prepared Statement of Mayor Anthony A. Williams

    Good afternoon Chairwoman Landrieu, Ranking Member DeWine, and 
members of the Committee. Thank you for calling this important hearing 
to discuss the District of Columbia's overall emergency preparedness 
plans. I welcome the opportunity to discuss three important concerns. 
First, I want to assure you that we have an emergency response plan 
that works and integrates all local, regional, and Federal partners. 
Second, I request your assistance in the short term to enhance our 
emergency preparedness infrastructure. And third, I also request your 
support for the long haul, because as long as the Nation is at war, the 
Nation's Capital will be at risk--both physically and financially.
    The President has warned that the war against terrorism may not be 
short and will not be easy. Your assistance in strengthening our 
immediate emergency preparedness capabilities will help ensure that 
this city, the Nation's Capital, maintains the highest state of 
emergency preparedness in the country for the foreseeable future.
    Being Mayor of the Nation's Capital means making sure that hometown 
Washington works--picking up the garbage, keeping the streets safe, 
attracting new businesses and jobs and, of course, doing all of that 
within the available financial resources. But since September 11, this 
city has become a vastly different place, and the responsibility of 
this municipal government to respond to the most extraordinary threats 
and attacks has grown exponentially.
    As Mayor, I am now trying to calm the fears of the public in light 
of the recent bio-terrorist attacks--reassuring our 572,000 residents, 
the hundreds of thousands of people who work here everyday, and the 
millions who come to visit from across the Nation and from around the 
globe--that Washington is a safe place to be. The District's Fire and 
Emergency Medical Services Department is now responding to 20 or 30 
times the number of calls for suspicious packages and other hazardous 
material concerns throughout the city and at the White House, Congress, 
the Supreme Court, and all Federal agencies. The District's Department 
of Health has become a first responder and service provider to tens of 
thousands of postal workers and mail handlers in the city so that the 
mail can continue to flow to District residents, local businesses, and 
the Federal Government. The Metropolitan Police Department, in a 
heightened state of alert since September 11, has a whole host of 
expanded responsibilities, responding to hundreds of suspicious 
packages, suspicious people, and bomb threats, and providing additional 
officers to support the Federal law enforcement agencies protecting the 
Federal holdings in the city. All of these activities must be 
integrated with and balanced against the rights of the citizens to have 
sufficient police presence to protect their neighborhoods and control 
crime in our streets.
    All of the agencies in my Administration have accepted their 
responsibilities to our Nation's Capital with honor and have performed 
with courage, skill, and care. We stand united to ensure that 
Washington, D.C. continues to be a safe and exciting place to live, 
visit, and do business.
    As you well know, the District has successfully rebounded from a 
financial crisis. Congress has been supportive throughout our financial 
recovery. With your help, and the support of the recently retired 
Financial Authority, the District has achieved financial stability. 
However, because of severe financial limitations placed on the District 
because it is the Capital, the city operates on a very small margin 
with revenues staying just ahead of expenditures. Between the decrease 
in revenue caused by the recent loss of tourism and the increased 
demands on public safety and public health services, the terrorist 
attacks have put enormous financial pressure on the District. I am 
confident that the strong relationship that we have built between the 
city and Congress during the financial recovery will enable us to work 
as partners to meet the challenges ahead.
                  emergency preparedness and response
    Like most Americans, the leadership of the District never 
anticipated the evil of using a passenger airliner as a weapon of mass 
destruction and the U.S. mail as a conduit of terror. For us, like most 
Americans, the cowardice of the terrorist attacks that began on 
September 11 galvanized our resolve to out-think, out-smart, and out-
plan any terrorist that targets the District of Columbia.
    Immediately following September 11, I convened a Task Force of 
senior District officials to review and improve the District's existing 
Emergency Operations Plan. I gave the Task Force two primary 
imperatives:
  --Immediately enhance critical linkages and operational relationships 
        with our Federal, State and regional partners; and
  -- Develop a comprehensive emergency management program capability 
        robust enough to respond to any incident.
    As you know, there already exists a comprehensive Federal Response 
Plan. My Task Force established subcommittees in each of the critical 
Emergency Support Functions (ESFs) to mirror the Federal Response Plan, 
including: a transportation group to review current evacuations plans; 
a communications group tasked with planning and implementing the 
District's emergency communications needs; a law enforcement group 
tasked with ensuring that public order is maintained during a crisis; 
and a command and control group to oversee and coordinate all 
operational response.
    To ensure cross-jurisdictional coordination and effective resource 
sharing, these subcommittees include representatives from all of the 
relevant Federal agencies, as well as officials from the surrounding 
jurisdictions in Maryland and Virginia. We are particularly grateful 
for the leadership provided by the Federal Emergency Management Agency 
(FEMA), which has brought the resources and representation of the 
National Capitol Region Response Team to the work of the District's 
Task Force. The National Capitol Region Response Team includes FEMA, 
the Environmental Protection Agency, the Department of Health and Human 
Services, and the U.S. Army Corps of Engineers, among many others.
    In addition, we are working closely with private sector 
organizations that are vital to our ability to respond in an emergency, 
including the American Red Cross and the Washington Area Hospital 
Association.
    This Task Force is updating and enhancing the District's Response 
Plan that describes the roles and responsibilities of the District 
agencies for the overall delivery of District disaster assistance, as 
well as their relationships with Federal agencies that may support them 
should the situation warrant Federal assistance.
    The D.C. Response Plan also coordinates response and recovery 
activities with volunteer agencies active in disasters, area 
neighborhood community groups, and the business community. The D.C. 
Response Plan is always operative. It does not need to be ``activated'' 
per se; it is a contingency plan that merely needs to be implemented as 
required by the nature of the situation. This ensures that no matter 
when an incident occurs, and what type of incident it may be, 
appropriate response actions are immediately put into motion--there is 
no question over the manner in which to respond, no confusion about 
what each of the first responders should expect from their emergency 
response partners. This is the core of an effective response plan.
     Should disaster strike tomorrow, God forbid--any incident from a 
water main break to a bioterrorism attack--two things happen 
immediately and concurrently. One, appropriate first responders--
police, fire, EMS, or health professionals--are deployed to the scene 
to begin initial response and containment activities, as necessary. 
Simultaneously, notification protocols are set into motion. My senior 
Administration team and I are notified of the preliminary facts as they 
come in. Notification is received through any one of numerous redundant 
voice and data communications technologies that are now in place. 
Decision-making begins immediately, even as additional information and 
confirmations come in from the first responders on the scene.
     Based on early information and assessment, I will make the 
decision as to what level of readiness the city should be in. In 
addition to normal operations, there are three levels of readiness, the 
highest of which is Level III, mirroring the Federal readiness levels. 
In a Level III emergency--the most extreme crisis situation--I activate 
the city's Emergency Operations Center, or EOC. Together with my senior 
management team, I go to the EOC to manage the incident.
     In a Level III emergency, the agency heads leading each Emergency 
Support Function (ESF) are notified, as are a number of independent and 
non-governmental agencies and organizations including the D.C. Public 
Schools, the utilities, the surrounding jurisdictions emergency 
management agencies, and selected individuals in the Federal 
Government. Appropriate representatives have been identified for the 
various types of emergencies, and those individuals would report to the 
EOC where all emergency operations are coordinated. The plan also 
identifies liaison personnel who are deployed to field command posts 
and Federal command centers, as appropriate, to facilitate effective 
communications.
     The EOC is the clearinghouse of critical operational information 
and all requests for support resources are brokered through the EOC. 
The EOC structure parallels that of both the FEMA Regional Operations 
Center and the Headquarters FEMA Interagency Emergency Support Team, 
allowing clear paths of communication between responders at the local, 
regional, and Federal level.
     Each ESF leader is responsible for executing the tasks that come 
to them, all of which are defined by the District Response Plan. Each 
ESF leader in the EOC sends information to first responders in the 
field. These ESF leaders also gather information from those in the 
field to ensure that the decision-makers and managers in the EOC have 
instant and accurate information.
     From the EOC, we will determine where all activities will be 
staged and how we will move people and emergency equipment in and out 
of town on emergency evacuation and access routes. Since September 11, 
we have identified all available staging areas, their physical 
attributes, for example, generators at certain public schools, and the 
requirements of the various ESF operations, such as the need for large 
parking areas, independent power supplies, and square footage. We now 
have a dynamic mapping capability that will allow the Incident 
Management Team in the EOC to prioritize and select staging areas for 
the various ESF operations and access routes between those areas and 
the incident scene.
     One important Emergency Support Function is Public Affairs 
function that will be operated out of the EOC during a Level III 
emergency. The Public Affairs ESF is the communications hub for getting 
information out to the public. Since September 11, we have built the 
operational framework for a Joint Information Center, at the EOC that 
will manage all public communications during an incident.
    It may be necessary during a Level III emergency to declare a State 
of Emergency as authorized by D.C. Code. In that circumstance, I would 
make a declaration of emergency, defining which authorities granted to 
me by law I would invoke to maintain order in the city. If necessary, I 
would also request a Presidential Declaration of Emergency or Major 
Disaster and the implementation of the Federal Response Plan, the 
effect of which would be to make Federal support and assistance 
available through the Federal Emergency Management Agency (FEMA). This 
eliminates layers of bureaucracy and accelerates the Federal response.
    For example, once a Presidential declaration has been made, the 
District Department of Public Works, which is the Emergency Support 
Function leader for public works and engineering, can request Federal 
assistance from FEMA for debris removal, emergency water supplies or 
emergency power generation. My director of Public Works has been 
meeting for several weeks with representatives of the Army Corps of 
Engineers and FEMA to ensure that emergency plans are in place should a 
Presidential declaration be made.
    Similarly, my primary agencies for other emergency support 
functions are building the same type of relationships with their 
Federal partners to ensure seamless operations in each functional area. 
The District Division of Transportation has met with the U.S. 
Department of Transportation and the Departments of Transportation for 
Virginia and Maryland to build interoperability in the transportation 
function.
     For all of these relationships to work effectively, we must test 
our plans and exercise our operational responses. On Thursday of last 
week I participated in a tabletop exercise with my key agency heads. We 
reviewed our notification procedures, discussed early communications 
and decision-making in an emergency operating environment and assessed 
our readiness levels. As a result we are making adjustments and further 
enhancements. We will have another tabletop next week and another 
following that one. We will exercise our plans and procedures until I 
am comfortable that we can execute our roles and responsibilities 
without hesitation. FEMA has agreed to participate in our tabletop 
exercises and we are extending the invitation to our neighboring 
jurisdictions as the scenarios warrant.
    If we are to be successful in safeguarding the Capital, it will 
require effective communications between the Federal Government and the 
District. Two weeks ago I had a productive meeting with Governor Ridge 
who is personally committed to working with me towards additional 
improvements in District-Federal cooperation. Since then, staff from 
Governor Ridge's office have met with my senior staff as well.
             short term investment in emergency preparedness
    While we work towards even better response and planning for a 
cataclysmic event, the day to day operations of our response activities 
are taking a toll. Over the past two weeks, our Fire and Emergency 
Medical Services Department have responded to between 30 and 70 
hazardous material (hazmat) calls per day. The Metropolitan Police 
Department has been on a heightened state of alert since September 11--
which has meant greater numbers of officers deployed, using more 
overtime dollars. In fact, we estimate that the additional personnel 
costs alone for police for the six months subsequent to September 11 
will be more than $6 million and more than $5 million for Fire EMS.
     I am here today to tell you that the men and women of the 
District's public safety and public health agencies are doing what 
needs to be done, but we are depleting our resources, and it is 
creating problems for the normal operations of hometown Washington, 
D.C. I have instructed the Fire EMS Chief to do what is necessary to 
respond to 30-70 hazmat calls per day, but we are running our hazmat 
units on unbudgeted overtime dollars. If we must sustain the current 
operational tempo over the long haul, we are determined to develop 
flexibility and depth far beyond what anyone has done before because of 
the unique responsibilities of this city as home to the Federal 
Government.
     That is why we have included $250 million for emergency 
preparedness in our $1 billion request for special appropriations. This 
$250 million request includes investments in:
  --Protective clothing, breathing apparatus, and specialized detection 
        equipment for our police officers, fire/emergency medical and 
        public health personnel who will be first responders in a 
        chemical or biological emergency;
  --Heavy equipment such as urban search and rescue tools, a mobile 
        laboratory for testing and detecting chemical and biological 
        risks and containment units at local hospitals;
  --Specialized training for police, fire/EMS and public health 
        personnel; and
  --Technological and communications infrastructure to support front 
        line emergency response communications.
    In addition to investing in the personnel that we depend upon in an 
emergency, this request will allow us to better serve the people who 
live and work in the District of Columbia. But this is not going to be 
fast; it is not going to be easy; and it is not going to be without 
cost. Together with our regional and Federal partners, and with the 
support of Congress, I am committed to seeing that our city meets--and 
exceeds--the newly created national standards for emergency management 
and business continuity programs endorsed by FEMA, the National 
Emergency Management Association, and the International Association of 
Emergency Management.
    This investment in the District's emergency response capability 
will help strengthen our preparedness to levels the American people 
should expect. Our Nation's Capital will always be a ``higher risk 
environment'' than most cities, and responding to a major emergency 
requires coordination and cooperation among all the local 
jurisdictions.
                      long-term fiscal assistance
    As we have seen so clearly over the past two months, when terrorist 
attacks close down the U.S. Capitol, shut down Reagan National Airport, 
and spread fear of biological warfare, many Americans are afraid to 
come to their Nation's Capital. The loss of revenue to the District 
since September 11 is staggering--we are projecting a $750 million hit 
to our economy, resulting in a loss of about $200 million in tax 
receipts. The economic impact felt here in the District has rippled 
throughout the regional economy. From what I understand both Maryland 
and Virginia are projecting significantly lower revenues as a direct 
result of September 11, and local governments in the surrounding 
jurisdictions have frozen spending and have imposed hiring freezes. In 
the District we are closely monitoring our budget . . . We will not go 
into deficit spending on my watch!
    I am deeply proud of the fact that the city has successfully 
rebounded from fiscal straits and emerged from a control period within 
four short years, while vastly improving the quality of services we 
provide to our residents. But the District's fiscal stability and 
growth may be vulnerable due to pressures generated by a weakened 
tourism industry combined with economic and national uncertainty. I 
fear that we continue to operate at one emergency away from financial 
difficulties. This will not be resolved until we address the core 
problem--congressionally imposed restrictions on our tax base. I 
strongly believe that the District's economy will continue to be 
vulnerable as long as we must provide services to a city that serves 
millions of people each day with a tax base of only 572,000 residents 
for support. This vulnerability is only exacerbated by the fact that 
while the country is at war our economic base, tourism, is threatened.
     From the Federal Government, these restrictions represent a 
reasonable exercise of prerogative in the Nation's Capital. For the 
District, however, these restrictions prevent the collection of fair 
compensation for services rendered--compensation that proves critically 
necessary for investing in infrastructure and service improvements, and 
maintaining a structurally balanced budget. For every dollar earned in 
the District, over 60 cents goes to the surrounding jurisdictions, 60 
cents that cannot be taxed to reimburse the District for maintaining 
the city's infrastructure and services.
     Congress should compensate the District for these restrictions. 
Without an equitable compensation, the District's long-term financial 
stability is at jeopardy. There are several viable options I ask 
Congress to seriously consider:
    Congresswoman Norton has presented the District of Columbia Non-
Resident Tax Credit Act. This would allow the District to tax income of 
non-residents, then offset these taxes with a Federal credit. In its 
anticipated form, this proposal would yield approximately $400 million 
in fiscal year 2003. The advantage of this proposal is that it affords 
the District, like States across the country, the opportunity to tax 
local income at its source, without unduly harming the residents of 
Maryland and Virginia.
     Another option requires that the Federal Government provide a 2 
percent credit to the District government on Federal taxes paid by 
District residents. This amount, approximately $500 million in fiscal 
year 2003, would compensate the District for Federal restrictions while 
providing funds to provide critical services.
     A third option envisions that the Federal Government establishes a 
Municipal Reimbursement Fund on behalf of the District to support 
critical needs.
    Regardless of the compensation mechanism selected, the District 
would focus substantial resources on infrastructure needs related to 
transportation, information technology, capital construction, and 
renovation. Through these options, or some appropriate alternative, the 
Federal Government should provide compensation for restrictions that 
have resulted in the structural imbalance of the District's budget.
     In closing, let me reiterate: We must stand united in conveying 
that the city is safe and open for business. The Nation looks to 
Washington to define normal in this new reality; to that end we have an 
effective emergency plan, but we need your short term support to 
enhance our emergency infrastructure and your long term fiscal 
assistance so that the city may weather any crisis that may come.
     I thank you for this opportunity to testify, and I look forward to 
our ongoing discussions about protecting our beloved city and the 
Nation's Capital and long term and short term Federal assistance to the 
District. I will now be happy to answer any questions you may have.
                                 ______
                                 

                  Prepared Statement of Michael Rogers

    Good Morning Senator Landrieu and Members of the Subcommittee. I'm 
pleased to be here today to discuss emergency preparedness for the 
Washington region and what the Council of Governments is doing to make 
sure those plans are effective and complete.
    As you know, the Council of Governments, or COG, is the association 
of 17 major cities and counties in the Washington metropolitan area. 
COG provides a forum for regional cooperation. At COG, elected 
officials work together to find solutions to our shared challenges, and 
then continue to work together to implement those solutions. This 
organization also serves its members by acting as a think tank for 
local governments and a regional information source on the environment, 
transportation and human services.
    COG represents a partnership that provides solid research, planning 
and leadership, and can ensure that this region speaks with one voice. 
As we confront the aftermath of the September 11 tragedy, I believe 
there has been no other time in COG's 44-year history when those 
services have been more valuable to the region.
    In recent weeks, COG has brought together the emergency management 
and public safety officials from our member governments, State and 
Federal officials, and local health organizations. Our purpose has been 
to coordinate the work that is being done by each of these entities 
into an effective and complete regional plan of action to be used in 
the event of major emergencies.
    COG continues to do what we do best--serve as a forum for 
interested parties to come together to discuss and plan for a specific 
emergency. We can do this because of COG's committee support structure 
that provides a place and mechanism for public safety officials to come 
together to address common needs and responses.
    In addition to the committee structure, the concept of a forum has 
been extended to COG serving as moderator of regional conference calls 
of public officials getting together to discuss event-related topics, 
such as government and school openings and closings, need for 
information hotlines, mutual aid, etc.
    COG facilities also are available for emergency meetings at the 
time of a disaster, such as those held during the Cryptosporidium scare 
in December 1993 and recent meetings regarding the re-opening of 
National Airport. If called upon 1COG can and did serve as the location 
for a hotline, with the attendant call takers, to give information to 
the public regarding the nature of the emergency.
    To give the local governments the tools that they need to manage an 
incident, COG has developed agreements, plans, and communication 
systems to aid them. Basic to contingency planning are the police and 
fire mutual aid agreements developed in the early 1970's. When one 
jurisdiction has an emergency and has committed or foresees that it 
will commit all of its resources, it can request aid from its 
neighbors. This was ably demonstrated at the Pentagon on September 11 
and continues as the FBI takes over the investigation at the disaster 
site. Work remains to be done at COG that would allow mutual aid to be 
used in a non-emergency, pre- deployment situation, such as the now 
canceled IMF/World Bank meeting.
    After the Air Florida Crash, COG took advantage of lessons learned 
and greatly improved the mutual aid operational plan called for in the 
police and fire mutual aid agreements. Using the Incident Command 
System as a basis, the operational plan spelled out how mutual aid 
would be provided to ensure that only legitimate aid was provided. The 
principles of incident command--with a single incident commander in 
charge and assisted by supporting staff--is being taught to responders 
at all levels of government.
    The question has been asked if COG has a terrorism plan. The short 
answer is no. The mutual aid operational plan developed after Air 
Florida is an all hazards plan. At the regional level, the planning 
principles contained in the Incident Command System are applicable to a 
whole host of contingencies, from a simple car crash to an aircraft 
accident. Specific planning remains the responsibility of the local and 
State Governments. Disaster response in this country flows from city or 
county to State and then to the national level. A regional organization 
such as COG is an anomaly in the process and thus is limited in what it 
can do. We help where our local governments perceive a role for COG.
    One such role for COG has been to develop the communications 
systems needed to talk to each other and to the public. A variety of 
systems exist. Police, fire, and DC hospitals have Mutual Aid Radio 
Systems that are tested daily and used with some regularity and most 
definitely on September 11. In the planning stage are systems such as 
CapWin and PSWN, both are intended to provide communications 
interoperability in this region. We are getting close to when every 
public safety and transportation entity will be able to talk to each 
other at the scene of an incident--a condition that didn't exist at the 
time of the Suicide Jumper on the Woodrow Wilson Bridge in November 
1998.
    The quickest way for local, State and Federal Government agencies 
to disseminate information is by use of the Washington Area Warning 
System--a landline phone system known as WAWAS. WAWAS is a special 
circuit of the National Alert Warning System (NAWAS). FEMA has given 
this capability to the Washington area because the seat of government 
is here in Washington and as such, is very vulnerable to attack--
nuclear in the past--terrorism in the present. Mostly this system is 
used by the National Weather Service for weather warnings. This system 
was used extensively in the recent disaster.
    Whereas WAWAS is for inter-governmental communications, the 
Emergency Alert System (EAS), formerly known as the Emergency Broadcast 
System (EBS), is for communicating with the public. A public official 
with a message for the public can interrupt radio and TV broadcasting 
in the metropolitan region by arranging with their emergency management 
agency to contact the primary EAS stations in the area, WTOP and WMAL. 
Through a daisy chain arrangement, stations all over the region will 
transmit the official's message to the listening and viewing public. 
This system was not used at any level of government on September 11.
    As you can see COG's role in an emergency is fairly limited but 
effective where we are involved. In the September 11th incident at the 
Pentagon, city and county administrators and school officials talked in 
four COG-arranged conference calls to decide government and school 
openings or closings. For future events, a recommendation was made for 
emergency management officials to confer on a regular basis by 
conference call rather than rely solely on the Washington Area Warning 
System.
    My final point is that COG provides a ready-made forum for 
investigating and solving the region's disaster preparedness needs. As 
such, the Federal Government is favorably inclined to deal with a 
single entity rather than 17 individual governments. This was the case 
with the Snow Plan, the Metropolitan Medical Strike Team and the 
recently completed Planning Guidance for the Health System Response to 
a Bioevent in the National Capital Region COG through the Bio- 
terrorism Task Force developed the planning factors and the guidance 
was passed on to the individual jurisdictions for implementation.
    The COG Board and Chief Administrative Officers Committee have both 
held extensive briefings on lessons learned from September 11 and have 
begun to outline follow up plans for COG so that we may improve 
regional coordination and communication in the future. Areas of focus 
include:
  --Developing a real-time communication capability to gather 
        information and coordinate decision-making.
  --Improving communication equipment and system interoperability.
  --Exploring guidelines for use by public and private employers, 
        including schools for any closure or early dismissal decisions.
  --Accelerating COG's efforts to revise mutual aid agreements to allow 
        for pre-deployment in non- emergency situations of mutual aid.
  --Identify the essential outcomes of various local, State and Federal 
        agency after action efforts, and organize a regional effort to 
        strengthen our region's overall emergency preparedness and 
        response capabilities.
    In each of these areas, COG anticipates working closely with key 
local, State and Federal emergency management and public safety 
agencies to ensure that our regional efforts are carefully coordinated 
with all relevant stakeholders.
    This morning I would like to outline the major steps COG has taken, 
and discuss how we plan to address the key issues and questions 
regarding emergency preparedness that confront the region. I'll also 
answer any further questions members of the committee may have.
                        the steps cog has taken
    At a special meeting on September 25, the COG board encouraged the 
Mayor of the District of Columbia and the chief executives from all the 
region's jurisdictions to work with COG to ensure that our regional 
infrastructure was prepared to respond to catastrophic events like 
those on September 11.
    At that meeting, we began the process of reviewing the police and 
fire mutual aid agreements that COG has had in place since the early 
1970's. The system worked very well on September 11, but we realize 
they need to be widened to address the new types of threats that can be 
directed at the Washington area.
    On October 10, COG's Chair Carol Schwartz, an at-large member of 
the District of Columbia Council, sent a letter to Secretary Tom Ridge 
of the Office of Homeland Security, asking him to make security plans 
for this region a model for the nation.
    On October 24, Chair Schwartz convened the first meeting of the COG 
Board Ad Hoc Task Force on Emergency Preparedness. The task force will 
continue to meet to coordinate regional emergency response plans into a 
unit that addresses policy-making, public safety, transportation, 
evacuation, communications, public utilities and health systems.
    On October 25, COG's Energy Policy Advisory Committee, which will 
report to the Board task force, met with the region's energy providers 
and distributors to get an assessment of the state of security for 
energy generation, transmission and distribution facilities in the 
region. We have the participation of the major utilities in the area 
and the senior-level energy managers of our local governments. Efforts 
are underway to coordinate the committee's work with Federal officials.
    On October 30, another major part of the COG task force began 
working as transportation officials from around the region met to 
consider transportation plans in the event of an emergency. They 
discussed the need for new radio systems to let police and 
transportation officials from different jurisdictions contact each 
other directly, as well as devising a plan to let the public know how 
to get home in the event of an emergency.
    At the next COG Board meeting, we will be very pleased to present 
the recently completed regional Planning Guidance to help health care 
systems handle bioterrorism. This document is a model of the kind of 
coordination that COG helps to sponsor in the region. It is designed so 
that every health official in the region knows the lines of authority 
in each jurisdiction. More importantly, it details the relevant 
information that must be gathered during what is termed a ``bio-
event,'' the methods of analysis to be used and the actions that must 
be taken. It is designed to ensure that regional health officials are 
responding in an organized, coordinated manner.
    COG will also take a fresh look at its overall communications and 
coordination role during emergencies. We have in place a system of 
conference calls and notification systems among government officials 
that will be strengthened and kept up-to- date. Finally, COG is working 
on a critical issue that will require Congressional action. That is the 
passage of legislation to address liability issues between 
jurisdictions when the region's police and fire mutual aid agreements 
must be used.
    In conclusion, I want the committee members to know that the 
Council of Governments is committed to working with the Federal 
Government, through FEMA and the Office of Homeland Security and with 
every jurisdiction in the region to develop the emergency preparedness 
plans that we need in the region. I know I speak for all of our board 
members when I say we regard this task as our goal and our duty.
    We are working with caution, care and all deliberate speed and we 
will remain in close contact with this committee and the relevant 
Federal offices as we move forward.
                                ------                                


                  Prepared Statement of Richard White

    Chairman Landrieu and members of the Subcommittee, good afternoon, 
and thank you for asking me to testify on the important subject of 
emergency preparedness in the wake of September 11. I am Richard White, 
and I am proud to serve as General Manager of the Washington 
Metropolitan Area Transit Authority (WMATA) here in the National 
Capital Region.
    The events of September 11 have affected all aspects of national 
life. Daily and routine events like business trips, vacation travel, 
and commuting have been changed forever. Although WMATA handled its 
mission well on that tragic day, we now face altered expectations, from 
our customers, many of whom work for the Federal Government.
    By way of background, WMATA was created in 1967 through enactment 
of legislation by the U.S. Congress, and by the Commonwealth of 
Virginia, the State of Maryland, and the District of Columbia. The 
Metro System was designed primarily to serve the employees of the 
Federal Government, the citizens of our region and the entire Nation 
who come to Washington to do business with the Federal Government, and 
the millions of people who visit the National Capital Region from 
throughout the world.
    Approximately 40 percent, or 200,000 of the region's residents who 
commute to the National Capital Core Area use transit. Half of 
Metrorail stations serve Federal facilities, and about 36 percent of 
the locally based Federal workforce use the Metro system to commute to 
their jobs. Safety and security are our top concern for each of the 1.1 
million daily trips provided our rail and bus system, so the important 
work of the National Capital Region can continue under all 
circumstances.
    Before responding to your questions regarding safety, I would like 
to acknowledge the extraordinary efforts of our New York and New Jersey 
colleagues. They were heroes in their communities. There were many 
courageous acts performed by transit employees, actions which saved 
thousands of lives that otherwise could have been lost in the subway 
tunnels that ran underneath the World Trade Center complex. In those 
and other systems across the Nation, America's transit customers were 
safeguarded on that sad day. And, Madame Chairman and members of the 
Committee, I believe that WMATA and transit systems across the country 
will play an even greater role in our national defense and national 
security in the months and years ahead.
    The most significant issue facing WMATA is adapting to the post 
September 11 reality that our freedom of mobility has been challenged. 
Security is paramount in the minds of our riders. WMATA is considered 
one of the safest transit systems in the country, but we are always 
reviewing ways to improve. Even before September 11, WMATA had prepared 
System Safety and System Security Program Plans; had developed standard 
operating procedures and plans to guide a variety of operational 
response situations; had established procedures and practices for 
activating our Emergency Operations Command Center (EOC); and had 
created redundant communications systems. In addition, we have been 
conducting annual counter-terrorism and explosive incident training for 
police and operations personnel, as well as providing a high level of 
interagency coordination and training programs and exercises with the 
many law enforcement and fire and emergency rescue agencies in the 
metropolitan area.
    Since September 11 we have taken a number of actions to provide 
enhanced security, including:
    Law Enforcement Visibility.--Metro Transit Police and all Metro 
employees remain on high alert. Additional uniformed and plainclothes 
officers have been deployed throughout the Metro System, wearing bright 
orange safety vests to make them more visible to customers. Further, 
many of our other front line personnel also wear bright colored vests 
to make them more visible to our customers.
    Improved Standard Operating Procedures.--Revised procedures were 
put into place October 18, 2001, for responding to suspected releases 
of hazardous materials on a train, right-of-way, rail station and on a 
Metrobus. A companion training program for all appropriate operations 
employees is also being put into place. These procedures, developed in 
consultation with our local fire departments, strike an appropriate 
balance between when, in case of an incident, we stop service for an 
indefinite period of time and when we continue to operate, but in a 
restricted manner.
    Daily Sweeps.--Each day our Operations Department performs thorough 
safety and security inspections of both our revenue and non-revenue 
facilities at the beginning of each shift.
    Removal of Trash and Recycling Containers.--All trash containers 
and recycling bins have been removed from our station platforms and 
relocated to other less crowded areas in order to minimize the 
possibility of these being used for destructive purposes. We have also 
moved, or removed, bicycle lockers and newspaper vending machines from 
areas that sit below rail overpasses.
    ``Bomb Threat'' Assessments.--We have reinstructed our employees in 
reporting suspicious or unattended packages and in dealing with phone 
in threats.
    Enlist the Help of our Customers.--Several ``Dear Fellow Rider'' 
letters have been distributed to our customers to engage them in our 
security efforts and to ask them to help to be our eyes and ears in 
reporting unusual events.
    Improved Internal WMATA Security, Procedures and Communications.--
We have updated the emergency evacuation plans for each of our 
facilities and are conducting emergency evacuation drills. The security 
at our headquarters building has been enhanced and we have plans to 
implement an electronic access system. In our mailroom, we have 
conducted training sessions, with written guidelines, and issued 
personal protective gloves for all mail handlers. All WMATA employees 
are receiving training on emergency management issues, such as station 
and train evacuation procedures and identifying and reporting 
unattended packages.
                      request for security funding
    We recently have conducted an updated comprehensive risk assessment 
of our revenue and non-revenue facilities and equipment. On October 12 
we sent a request to the Office of Management and Budget Director 
Daniels detailing our a request of $190 million in security funding 
requirements based on the security assessments that have been made to 
date. I am submitting for the record a copy of our request to OMB 
Director Daniels. Our request covers:

                          [Millions of Dollars]

        Description of Enhancement                                  Cost
Additional high visibility uniformed patrols at key Metrorail 
    stations and eight additional K-9 teams.......................   2.0
Completion of Metrorail Fiber Optic Network vital for video 
    recording devices.............................................   2.2
Metrorail Facilities Intrusion Detection Equipment................   8.9
Electronic Employee ID targets and vehicular gates at all Metro 
    facilities....................................................   1.8
Personal Protective Equipment for 5,000 employees; training; and 
    satellite telephones for key personnel........................   5.0
Facilities modifications for bomb resistance, including bomb 
    containment trash containers at all stations..................   7.0
Automatic Vehicle Location (AVL) System for Metrobus to pinpoint 
    the exact location of all our buses and to direct emergency 
    personnel.....................................................  15.0
Expand chemical emergency sensor program..........................  81.0
Intrusion Detection Warning System, Closed Circuit TV, and alarms 
    at Metrorail shops and yards..................................   7.2
Backup Operations Control Center and Emergency Command Center.....  40.0
Digital cameras installed on all Metrobuses.......................  20.0
                                                                  ______
    Total......................................................... 190.1

    Our total $190.1 million request includes items that we believe are 
highly valuable and directly linked to enhancing our safety and 
security capabilities for our customers and our employees.
           emergency planning in the national capital region
    We are working closely with the Metropolitan Washington Council of 
Governments (MWCOG) as a key member of a transportation committee--
chaired by City of Fairfax Mayor John Mason, who also serves as 
chairman of MWCOG's National Capital Region Transportation Planning 
Board--to ensure that our Metro system is seen by all as a vital 
component of this region's national defense and emergency response 
strategy. The important work of this transportation committee is now 
bringing together all the region's transportation implementation 
agencies (DCDOT, VDOT, MDOT) and the region's 11 transit providers to 
open the lines of communication and coordination in an emergency 
situation, and to develop a plan or ``play book'' for any number of 
situations that may arise in the future. This effort, however, cannot 
stand on its own. As part of a broader effort the MWCOG Board, chaired 
by D.C. Council Member Carol Schwartz, is seeking to establish a truly 
regional emergency response plan that includes police and security, 
fire and safety, emergency medical and regional communications. It is 
designed to mirror the work being done by Governor Tom Ridge in the 
President's Office of Homeland Security.
    There are several additional working groups that are undertaking 
similar efforts to ensure a regional, rather than local, response to 
any future potential terrorist acts. Madame Chair and members of the 
committee, I feel strongly that any efforts along these lines will only 
succeed when everyone who is a major stakeholder in the safety and 
security of this National Capital Region, including the civilian and 
military components of the Federal Government, the State governments 
and regional and local governmental agencies, has a seat at the table 
and is a contributing participant as plans are being developed.
                               conclusion
    I greatly appreciate the Subcommittee's consideration of WMATA's 
funding request for security enhancements. Now is the time for the 
Nation to consider certain transit properties, such as the WMATA 
System, as part of the national defense system, and to contemplate 
their value and needs as the evacuation method of choice, and possibly 
necessity, during specific emergency situations. Every mode of 
transportation is important during emergencies, but transit has 
experienced the highest growth rate of any of the transportation modes 
over the past 5 years. It is able to move people much more quickly and 
efficiently than congested roads and highways can. The Nation needs to 
view our transit systems in this national defense context in order to 
properly recognize the new reality. Given the fact that WMATA is 
located in the National Capital Region and is so integral to the 
workings of the Federal Government, there is an even greater need to 
enhance security in the Metro System.
    Thank you for holding a hearing on this important subject. I look 
forward to answering your questions.

    Senator Landrieu. Thank you, Mr. Mayor, for that very 
concise and instructive statement, and now we will hear from 
our council chair.
STATEMENT OF LINDA W. CROPP, CHAIRMAN, COUNCIL OF THE 
            DISTRICT OF COLUMBIA
    Ms. Cropp. Thank you very much, and good afternoon, 
Chairwoman Landrieu and Senators DeWine and Reed. It is a 
pleasure to be here with you, and thank you for the invitation 
to allow the legislative branch of Government to come and 
testify before you.
    First, let me emphasize that the District of Columbia has 
an operational emergency preparedness and response plan to 
serve the needs of all who live, work, and visit the Nation's 
Capital. I will not read the entire testimony, but I would like 
to submit the entire testimony for the record.
    While no one anticipated the terrorist attacks of September 
11, there did exist on that day a working emergency operations 
center at the District of Columbia Emergency Management Agency, 
where the Mayor went and became the incident commander, as is 
protocol, from which the media communications operations was 
launched, and where all interagency coordination occurred that 
day, as is protocol.
    With the anthrax concern, our Mayor gave this city and, 
indeed, the Nation, a sense of calm, strength, and stability.
    Also on September 11, the District of Columbia had the 
Metropolitan Police Department state of the art joint 
operations command center up and running, which coordinated all 
law enforcement operations, both Federal and local, throughout 
the city and, as you may know, the JOCC was instrumental in 
rumor control.
    Since September 11, the District government has been 
participating with our Federal, regional, and private sector 
partners in comprehensive planning for other potential 
terrorist attacks. Immediately after 9/11, the Mayor 
established a domestic terrorism task force in which virtually 
his entire cabinet has participated, along with the legislative 
branch. Kathy Patterson, who chairs our Judiciary Committee, 
Vincent Orange with Government Operations, and several other 
council chairs.
    Through these meetings, the Williams administration has 
been updating and enhancing the District's emergency operation 
plans, which from now on will be based on the Federal response 
plan. The District's domestic terrorism task force has 
participated in table top exercises to test and practice the 
city's response to disaster.
    As you know, the District also has responded to 9/11 by 
immediately assessing its critical needs in terms of resources 
for specialized equipment, personnel training, and 
communications infrastructure. The Mayor has outlined the 
details of this $250 million request for Federal funding, which 
is vital to ensure the adequate emergency preparedness and 
response in this Nation's Capital.
    The District of Columbia enjoys many benefits, but also 
bears several unique costs because of its status as the 
Nation's Capital. With regard to the effect of the devastating 
terrorist attacks on September 11 and their continuing 
aftermath, let me review some of the unique costs that are 
being borne by the District government, and why we need the 
uniquely high Federal dollars to assist us both directly with 
these costs and to assist with our economic survival so that 
the District has sufficient revenue to help pay for vital 
services that we provide to the Federal Government.
    As you know, it is primarily local resources that have been 
used to protect the public safety and public health of not only 
the 600,000 residents who live within the District and not only 
the 2 million people, mostly from Maryland and Virginia, who 
work here every day, but also the foreign embassies and the 
entire Federal establishment which is headquartered here in our 
Nation's Capital.
    The reality is that local governments everywhere are the 
first responders in this new war against terrorism on our 
homeland. It has been our local police officers, local 
firefighters, local emergency medical technicians, local 
management directors, local public health officials who have 
been the first responders to the attacks and the threats 
against America. Here in the Nation's Capital, which has been 
and will continue to be a primary target for terrorism, it has 
been locally raised revenue that has been paying in large 
amounts for the safety and health of the Federal Government and 
its workforce.
    While our fervent patriotism and responsibility demands 
that we protect our Federal Government, our fervor and our 
responsibility is not diminished to protect our local residents 
and businesses. Therefore, Congress and the President must 
recognize that when, for example, our police force is deployed 
from our neighborhoods to protect Federal facilities and 
Federal officials, more than what was previously the norm, our 
local residents and businesses become less protected than 
previous.
    When demand by the Federal Government for the District's 
first responders is greater than can be paid for by locally 
raised revenue, the Federal Government has a special 
responsibility to help address these financial needs. Other 
cities have States that step up to the plate, and other cities 
simply do not have the level of Federal presence and historic 
monuments that we have.
    Mayor Williams has indicated the District is expected to 
lose $750 million in just the first 6 months after September 
11. At least 10,000 small businesses are at risk, a result of 
this disaster.
    I am going to skip over some of my testimony.
    Of course, we are a Nation at war, and unlike any war we 
have ever experienced, because it is a war against terrorism in 
our homeland and the Nation's Capital, it is at the epicenter 
of this war. We who live here, with the nightly roar of F-15 
Air Force jets flying overhead, with our main post office and 
many mail rooms closed due to anthrax contamination, and with 
the constant uncertainty of when and where and in what form the 
next attack will take place, we are painfully aware of what a 
prime target we are to our enemies, and yet those jets and 
other security precautions that are being taken actually make 
us one of the most protected cities in America today.
    The Federal Government certainly must take all the 
necessary steps to ensure the security of Federal facilities 
and officials in Washington, and the District government with 
our police, fire, public health, emergency management, and 
other agencies is certainly doing our part to assist in this 
security cost, for which the District has not been adequately 
compensated.
    Security must be balanced with public accessibility and 
democratic values. We worry about projecting the wrong negative 
image of a city under siege and hurting tourism, which is our 
number one business, once we get past the Federal Government. 
We must reopen and advertise the reopening of the White House, 
the United States Capitol, and our other national icons here to 
tourists as soon as possible.
    We urge you to support the request of the National Capital 
Planning Commission for Federal funding of security measures 
which are comprehensively designed and built to increase public 
safety while also maintaining public accessibility and the 
physical beauty of the Nation's Capital.
    We appreciate the President's request for $25 million in 
emergency management funds to the District. We also appreciate 
that this amount is in addition to the $16 million already 
included in both the House and Senate version of the 2002 
budget. However, these amounts, as the Mayor detailed, fall far 
short of the city's needs. The Council joins the Mayor in 
asking for your support and advocacy in obtaining the 
District's full request of $1 billion in emergency preparedness 
and economic assistance funding. These funds are critical to 
the District's survival. The specific purposes of each of these 
dollars are detailed in the document provided by the mayor to 
the Congress and the White House.
    The Council calls upon the Congress to support 
Congresswoman Norton's legislation to require the District 
government to be included in all aspects of Federal emergency 
planning, emergency preparedness. We also support the 
legislation to provide the Mayor of the District of Columbia 
with the authority to mobilize the National Guard, the same 
authority that governments of all 50 States have. The Council 
joins with the Mayor and our Congresswoman in urging the 
subcommittee's advocacy for short-term funding.

                           prepared statement

    I want to thank you again for this opportunity to testify 
before the subcommittee today and, as always, I look forward to 
working with you to ensure a brighter tomorrow for the Nation's 
Capital for all who live, work, and visit here.
    Thank you very much.
    [The statements follow:]

                   Prepared Statement of Linda Cropp

    Good morning, Chairwoman Landrieu and members of the Subcommittee, 
and thank you for your invitation to testify at this hearing today. I 
would like to take this opportunity to comment on the District of 
Columbia's emergency preparedness and the District's economy in the 
aftermath of the September 11 attacks on the United States.
    First, let me emphasize that the District of Columbia has an 
operational emergency preparedness and response plan to serve the needs 
of all who live, work and visit the Nation's Capital. While no one 
anticipated the terrorist attacks of September 11, there did exist on 
that day a working emergency operations center at the District of 
Columbia Emergency Management Agency, where the Mayor went and became 
the Incident Commander, as is protocol, and from which the media 
communications operation was launched, and where all inter-agency 
coordination occurred that day, as is protocol.
    Also on September 11, the District of Columbia had the Metropolitan 
Police Department's state of the art Joint Operations Command Center 
(JOCC) up and running, which coordinated all law enforcement 
operations--both Federal and local--throughout the city. As you may 
know, the JOCC was instrumental in rumor control and law enforcement 
deployment throughout 9/11. In addition, the District implemented its 
evacuation plan for traffic, which was used successfully on 9/11, given 
the extraordinary circumstances of a non-staggered closure of all 
Federal offices as well as the closure of the city's major bridges out 
of the city--closures which occurred, I might note, without appropriate 
consultation with District officials.
    Since September 11, the District government has been 
participating--with our Federal, regional and private sector partners--
in comprehensive planning for other potential terrorist attacks. 
Immediately after 9/11, the Mayor established a domestic terrorism task 
force, in which virtually his entire cabinet has participated (along 
with Council member Kathy Patterson, who chairs our Judiciary 
Committee, as the Council's representative). Through these meetings, 
the Williams Administration has been updating and enhancing the 
District's emergency operations plan, which from now on will be based 
on the Federal Response Plan, which has a basic plan and then over two 
dozen emergency support functions (e.g., law enforcement, urban search 
and rescue, mass care, transportation, communications, etc.). The 
enhanced plan is almost completed and once final, will be published in 
the DC Register and sent to the Council for approval. (A copy of the 
most recent draft of this enhanced emergency response plan is available 
here and will be submitted for the record, with your permission.)
    The District's domestic terrorism task force has participated in 
table top exercises to test and practice the city's response to a 
disaster. As you know, the District also has responded to 9/11 by 
immediately assessing its critical needs in terms of resources for 
specialized equipment, personnel training and communications 
infrastructure. The Mayor has outlined the details of this $250 million 
request for Federal funding which is vital to ensure adequate emergency 
preparedness and response in the Nation's Capital.
    The District of Columbia enjoys many benefits but also bears 
several unique costs because of its status as the Nation's Capital. 
With regard to the effects of the devastating terrorist attacks of 
September 11 and their continuing aftermath, let me review some of the 
unique costs that are being borne by the District government, and why 
we need uniquely high Federal dollars to assist us both directly with 
these costs, and to assist with our economic survival so that the 
District has sufficient revenue to help pay for vital services that we 
provide to the Federal Government.
    As you know, it is primarily local resources that have been used to 
protect the public safety and public health of not only the 600,000 
residents who live within the District, and not only the two million 
people (mostly from Maryland and Virginia) who work here every day, but 
also the foreign embassies and the entire Federal establishment which 
is headquartered here in the Nation's Capital.
    The reality is that local governments everywhere are the first 
responders in this new war against terrorism on our homeland. It has 
been local police officers, local firefighters, local emergency medical 
technicians, local emergency management directors, and local public 
health officials who have been the first responders to the attacks and 
threats against America. Here in the Nation's Capital, which has been 
and will continue to be a primary target for terrorism, it has been 
locally raised revenues that have been paying in large amounts for the 
safety and health of the Federal Government and its workforce.
    While our fervent patriotism and responsibility demands that we 
protect our Federal Government, our fervor and responsibility is not 
diminished to protect our local residents and businesses. Therefore, 
the Congress and the President must recognize that when, for example, 
our police force is deployed from neighborhoods to protect Federal 
facilities and Federal officials more than what was previously normal, 
our local residents and businesses become less protected than 
previously. When demand by the Federal Government for the District's 
first responders is greater than can be paid for by locally raised 
revenue, the Federal Government has a special responsibility to help 
address these financial needs. Other cities have States that step up to 
the plate, and other cities simply do not have the level of Federal 
presence to protect as we must do here in the Nation's Capital.
    If the United States Capitol police force of about 1,200 officers 
(which is the same size as the police force in San Diego that protects 
a city of over one million residents) must be supplemented with D.C. 
National Guards to protect the Capitol complex and these surroundings, 
then surely the Congress recognizes that the District's entire police 
force of 3,600 officers must also be supplemented.
    As Mayor Williams has indicated, the District is expected to lose 
$750 million in just the first six months following September 11. At 
least 10,000 small businesses the engine that generates economic growth 
are at risk. As a result of this economic disaster, the District 
government itself is currently projected to lose $200 million in tax 
revenue over the next year. Moreover, the cost to District agencies to 
enhance emergency preparedness is $250 million. And this amount, as 
I've stated, does not include the substantial costs of increased 
protection to the Federal establishment.
    To quantify our post-911 economic loss in human terms, the Mayor 
has submitted documentation as to why we need approximately $766 
million in economic recovery assistance. Twenty-four thousand District 
jobs are projected to be lost during the next 6 months jobs held not 
only by DC residents but also in fact a majority by residents of 
Maryland and Virginia. At least half of these jobs are in the hotel and 
restaurant business. Right now, about half of the local travel, hotel, 
restaurant and tourism-related employees are unemployed. The projected 
loss of these tens of thousands of jobs in the District completely 
wipes out all of the employment gains that we had finally made in the 
District during the past few years after decades of job loss.
    These gloomy projections were made prior to the most recent anthrax 
scares and deaths, which of course shut down Congressional buildings 
last month, along with mail delivery service throughout the entire 
city, further negatively impacting both businesses and residents.
    Reagan National Airport, which is thankfully open again and which 
during the past few weeks has thankfully resumed service to 12 more 
cities, is still today running at only one-third of the commercial jet 
service it provided prior to September 11. We need to establish 
benchmarks and timetables to restore full service to National Airport--
what the Mayor has accurately described as our front door.
    Tours of our most popular destinations, particularly for 
schoolchildren the White House, the U.S. Capitol building, the FBI, the 
Supreme Court, and the Bureau of Engraving and Printing have been 
suspended indefinitely, and of course the Washington Monument has been 
closed for a long time due to renovations. This of course sends an 
inaccurate message to the Nation that all of Washington is closed, and 
it obviously has a downward ripple effect on the entire hospitality 
sector.
    Although other monuments and museums on the Mall and elsewhere are 
in fact open, there are currently few visitors. Other than the Federal 
Government, tourism is the District's most important industry, with 
over 25 million visitors a year to Washington. We must do everything we 
can to return to an image of being safe and open for business and 
pleasure travellers to visit Washington.
    Of course we are a Nation at war, and unlike any war we have ever 
experienced, because it is a war against terrorism on our own homeland. 
And the Nation's Capital is at the epicenter of this war. We, who live 
here with the nightly roar of F-15 Air Force jets flying overhead, with 
our main post office and many mailrooms closed due to anthrax 
contamination, and with the constant uncertainty of when and where and 
in what form the next terrorist attack will take place, are painfully 
aware of what a prime target we are to our enemies. And yet those jets 
and other security precautions that are being taken actually make us 
one of the most protected cities in America today.
    The Federal Government certainly must take all necessary steps to 
ensure the security of Federal facilities and officials in Washington. 
And the District government, with our police, fire, public health, 
emergency management and other agencies, is certainly doing our part to 
assist with this security--costs for which the District has not been 
adequately compensated.
    However, as we increase security against terrorism, which we are 
doing, and as we prepare for and respond quickly and comprehensively to 
various emergencies and ensure the public safety and health, which we 
also are doing, we must be equally vigilant about maintaining our free, 
open and economically prosperous society which this war is all about. 
Security must be balanced with public accessibility and democratic 
values. Because if we continue falling too much into a fortress 
mentality--where, for example, we allow the proliferation of ugly 
concrete jersey barriers which shut off citizens from their public 
streets, their national symbols, and their daily commerce--we will 
continue to project the wrong negative image of a city under siege, 
thereby killing the economic vitality of Washington, DC and providing 
the terrorists with a huge victory. That is why we must re-open and 
advertise the re-opening of the White House and the United States 
Capitol and our other national icons here to tourists as soon as 
possible. That is also why I urge you to support the request by the 
National Capital Planning Commission for Federal funding of security 
measures which are comprehensively designed and built to increase 
public safety while also maintaining public accessibility and the 
physical beauty of the Nation's Capital.
    We appreciate the President's request for $25 million in emergency 
management funds for the District of Columbia out of the first $20 
billion in supplemental funds that were authorized by Congress to 
address the immediate needs of affected jurisdictions following the 
September 11 attacks. We also appreciate that this amount is in 
addition to the $16 million already included in both the House and 
Senate versions of the fiscal year 2002 D.C. appropriations bill for 
the District to respond to the attacks, and in addition to the $6 
million received by the District in fiscal year 2001 emergency 
supplemental appropriations to pay for police overtime in advance of 
the IMF/World Bank meetings in Washington that were ultimately 
cancelled.
    However, these amounts, as the Mayor has detailed, fall far short 
of the city's needs. The Council joins the Mayor in asking for your 
support and advocacy in obtaining the District's full request for $1 
billion in emergency preparedness and economic assistance funding. 
These funds are critical to the District's survival. The specific 
purposes of each of these dollars are detailed in documents provided by 
the Mayor to the Congress and the White House.
    The Council calls upon Congress to support Congresswoman Norton's 
legislation to require the District government to be included in all 
aspects of Federal emergency planning, domestic preparedness and 
homeland security which affect the Nation's Capital. The Council also 
urges your support of her legislation to provide the Mayor of the 
District of Columbia with the authority to mobilize the National 
Guard--the same authority that the governors of all 50 States have. We 
have all realized that more systematic consultation, cooperation and 
coordination amongst Federal, District and regional officials are 
essential to better anticipate, prepare for and respond to the array of 
emergencies with which we are challenged as the Nation's Capital 
community.
    The Council joins with the Mayor and Congresswoman Norton in urging 
this subcommittee's advocacy of not only this short-term Federal 
funding necessary to pay for the Federal Government's fair share of the 
District's immediate and substantial costs as a result of the recent 
terrorist attacks--costs for emergency preparedness, public safety, 
public health and economic recovery assistance in the Nation's Capital. 
We also once again join with the Mayor in urging Congressional and 
White House support for Congresswoman Norton's legislation to provide 
an annual funding source for the District of Columbia--one that 
adequately compensates us for the annual costs of services provided and 
revenue denied as a result of the Federal presence and the unique 
Congressional prohibition on taxing the income of two-thirds of the 
income earned within the District of Columbia.
    Thank you again for this opportunity to testify before the 
subcommittee today. As always, I look forward to working with you to 
ensure a brighter tomorrow for the Nation's Capital and for all who 
live, work and visit here.

    Senator Landrieu. Thank you all very, very much for your 
testimony. I think to expedite the hearing we could go into 
some questions, perhaps our first round of 5 minutes each, and 
then go through a second round of question and comments to the 
full panel.
    Let me just make one observation before my questions. 
Shortchanging the District at this time would unquestionably 
put lives at risk, and so I hope we take very seriously our 
efforts today to hear carefully and clearly the request being 
made by this team and to do our best to provide the resources 
necessary for the District to protect and preserve lives, and 
to continue to serve as such a symbol for our Nation.
    Just as the Senator from Rhode Island mentioned his 
Government has a significant need, I am sure as I visit with my 
Governor and legislative branch and local officials in 
Louisiana, and have been meeting with them, their needs are 
quite significant, Ohio's needs are quite significant and our 
cities and our States will make every effort to find moneys 
within their budget to set up their plans, but particularly I 
was struck, mayor, by your comments about the District and its 
attempts to do that, which all of our cities and States are 
attempting to.
    You have been doubly hit, though, because one of your 
sources of income being tourism, because you are, in fact, the 
Nation's Capital, has taken a serious downturn, so it really 
inhibits your effort, or makes more difficult the task before 
you.
    Coming from a tourism State, as the City of New Orleans, I 
am sympathetic and certainly can understand that, but let me 
just ask for the record, what percentage of your revenues are 
tourism-related for your city, your tourism revenues? What 
percentage of your budget, approximately, comes from tourism? 
Do we have any record of that, or do you know, Ms. Cropp?
    Mr. Williams. I could get you that exactly, Madam Chair.
    Senator Landrieu. Approximately.
    Mr. Williams. The sales tax is over $700 million, and as 
you can imagine, a huge part of your sales tax is generated by 
tourism. I can give you another example of the impact. There 
are fees, receipts that go toward defraying the cost of our new 
convention center, itself a locomotive for tourism. This is 
based on receipts from our hotels and our restaurants.
    When you have got a situation where a waiter is taking in 
in a week what he normally would take in in receipts in an 
hour, you can see how that has trailed off, but I can get you 
an exact table of the amounts.
    Senator Landrieu. Let the record just stay there. I know 
that there are other committees that have looked more closely 
at the economic issues, but it relates and overlaps, and is 
quite important for us to have that clear picture, because this 
is about the District's efforts to invest in their own security 
plan, but those efforts themselves are hampered by the attacks 
and the consequences of the attacks, just for the record.
    My questions would be these, Mr. Mayor. If you would maybe 
go into some more detail--first of all, let me ask this, and 
then I will get back to the regional. Has there been any 
thought to your plan, which I have read and find very 
comprehensive in its request, but has there been any thought to 
having an independent evaluation of your plan? Do you believe 
that that would be important, or has anyone suggested--has 
there been an independent evaluation of the plan by an outside 
entity? Mr. LaPorte.
    Mr. LaPorte. After about a few weeks, after we wrote the 
plan and started to kind of go through it and test it a little 
bit, we submitted it to the Federal Emergency Management Agency 
asking for their review of the document specifically, both FEMA 
headquarters and the FEMA region, and to look at our plan 
specifically and how it corresponded with Maryland and 
Virginia's. In fact, we shared our plan with those two States 
as well.
    FEMA has given us some pretty good feedback. We 
incorporated that feedback in our plan. As any plan, it 
continues to evolve, but it has received that review, and we 
also shared it with the field office of the FBI here in town.
    Senator Landrieu. It might be helpful to our committee to 
have that feedback as we evaluate the plan also. I think it 
would be very helpful, and I commend you for submitting it for 
outside evaluation, particularly to an agency that probably 
supervises and helps stand up emergency management plans all 
over the Nation, so they would be in a good position to say 
what are some of the stronger and weaker points of the plan.
    Mr. Mayor, let me ask you, could you go into a little bit 
more detail about the regional cooperation efforts, and 
perhaps, Mrs. Kellems, you would want to speak to that also. 
Could you just try to describe in some more detail about what 
efforts have been made with Virginia and Maryland, and how 
established are those institutions that will help us to form a 
seamless regional plan?
    Several Senators, obviously from Maryland and Virginia have 
mentioned to me their interest and concern in making sure that 
our plan is coordinated with particularly those two States, and 
the counties, so could you just go into some more detail to 
help us be clearer on that point?
    Ms. Kellems. Sure. We have got a number of different points 
of connection, operationally. Everyone sitting at this table 
can tell you about their specific functional area integration. 
I will give you some of the overview of it.
    On the law enforcement side, there is a longstanding 
relationship between MPD and the Federal agencies, but also MPD 
and all of the surrounding jurisdictions. Because we have so 
much interaction in terms of large-scale events, other kinds of 
protests, this has been a normal part of our operation, one 
that we have really focused on in the last few weeks, of 
course, in terms of emergency response, but that is very much 
part of the normal course of business for MPD.
    The same is very true of the fire and EMS department here. 
We have, through the Metropolitan Washington Council of 
Governments, had for many years mutual aid agreements for fire 
and emergency medical services with all of the surrounding 
jurisdictions. In fact, on September 11, many of those mutual 
aid agreements were invoked, allowing District fire and EMS 
folks to go provide support at the Pentagon while our own 
resources were backed up by people from Maryland, by the 
departments from Maryland coming in to back-fill for us.
    In the department of health, and I hope Dr. Walks will get 
an opportunity to talk more about this, we have probably the 
most significant advancement in the last couple of years. They 
have built a network of monitoring symptomology, for example, 
because of the impending threats just like this.
    They have a communications network that allows all of the 
regional hospitals to communicate with each other instantly, 
get out the kind of information they need, so on the operating 
level you are seeing a lot of that, and of course through EMA, 
from a coordination perspective, we have representatives from 
the emergency management agencies who respond to our emergency 
operations center, and we do the same for them, so I think 
across the board people should rest assured that there is a 
significant amount of operations and management integration now 
with all of the surrounding jurisdictions.
    Senator Landrieu. Mr. Mayor, you indicated in your 
testimony that you had recently conducted a table top exercise 
of this plan that you are submitting, and you mentioned in your 
testimony you found some kinks that needed to be worked out. 
Could you just go into some more detail about how you actually 
walked through that exercise? Did that exercise occur with all 
of your emergency support functions, and do you plan to go 
beyond any table top exercises to perhaps some sort of real 
field testing or operations, and Mr. Mayor, if you might 
comment, and then Mr. LaPorte or any of the other panelists 
that would have something to share about this operation.
    Mr. Williams. I would just say, Senator, just for your 
information, if you will, you can analogize it to World War II, 
General Marshall is Margret Kellems, and the commander on the 
scene--she does not look like it, but--the commander on the 
scene is Peter LaPorte, and she is responsible really, she is 
the ultimate person responsible in terms of accountability for 
making all of this happen and for bringing to bear all the 
resources, not only within the District, but across the region, 
if you will, to the scene, and I think she is doing a brilliant 
job of it, so she really is the person responsible.
    But in terms of these exercises themselves, the table top 
exercise is an effort for us to actually put the plan into 
action, and following this table top exercise I asked that we 
increase the frequency of them and, if necessary, the duration 
of them, to see that we are getting it right. Not that anything 
was grievously wrong, but to see that we are getting it right, 
and even more importantly, we fully intend to actually have 
sessions and practices out there in an open setting involving 
our agencies, and I think as we get through this, our private 
businesses as well, because everybody has to be prepared.
    This particular exercise itself involved a hypothetical, 
obviously, of a bomb in the subway out of one Judiciary Square, 
and how the response would happen, and just some of the issues 
that came up. One was the issue of seeing that your first 
responders are coming to the scene and responding to the scene 
on predescribed routes and plans, protocols and everything 
else, and at the same time reserving to civilian authority the 
official declaration of Tier 3 level of alert, or preparedness, 
reserving to civilian authority obviously the formal 
declaration of an emergency.
    We talked about communications. We have all the technology 
now in place. The communications protocols for Tier 1, as a 
matter of fact, Level 1 District notification protocol for 
emergency action talks about how the different classes, if you 
will, echelons in the District government will be notified in 
an emergency. We talked about how we would get immediate 
communication, continuous communication out to people in the 
public in an emergency situation, the need to quickly begin 
sending out bulletins as quickly as possible, get out there 
with a press conference in a matter of minutes, as opposed to a 
matter of hours.
    So these are all issues that came up and we discussed.
    Senator Landrieu. Well, my colleagues will have questions, 
but I just want to follow up, because this was, of course, an 
issue that we actually got to witness and see in New York, and 
we have had our own exercises in terms of our own Federal 
responses to these emergencies, but are you testifying that in 
your plan Mrs. Kellems is the authority, police report to her, 
fire report to her, there would be no problems with the CIA, 
the FBI, and how are the Federal agencies and the 
jurisdictions--would they, under your plan, be responsive to 
your deputy? Is that what we are setting up?
    Mr. Williams. Well, yes and no.
    Senator Landrieu. Or is she just coordinating the city 
agencies?
    Mr. Williams. She is coordinating the city agencies in an 
emergency. She would be over at the joint operations command 
center, at the police department, representing me at the police 
department, and to the extent that at the joint operations 
command center there is active involvement--she can tell you 
about this--active involvement from the Secret Service, the 
FBI, and other law enforcement there at the scene, she 
certainly is a conduit of that information, information 
assessment to me as mayor at the emergency operations center 
and the other authorities there.
    Senator Landrieu. And who is the senior authority at that 
joint operations center? Who is the top authority at that joint 
operations center, chief, because I know you are represented 
there, the police chief would be represented, the mayor's 
office would be represented as a joint center, but who does 
everyone answer to?
    Mr. Ramsey. Well, the job that we have is for law 
enforcement, and depending on the nature of the incident for a 
terrorist attack, for example, the FBI is the lead law 
enforcement agency. We all come together, we do everything in 
consultation, but they would be the lead law enforcement 
agency, but as it relates to the deployment of MPD assets, I 
certainly would be making that call.
    We would use an incident command system, where everyone has 
clear roles and responsibilities that would be given them in a 
situation like this, but we would have representatives not only 
from Federal agencies but also from regional law enforcement 
agencies that would be present at the time.
    It really works quite well, but a lot of it is driven based 
on the nature of the incident itself, in terms of who has the 
final say on what law enforcement action would be taken in a 
given situation.
    Senator Landrieu. Senator DeWine.
    Senator DeWine. I look down through the requests, 
obviously, two of the big-ticket items are $46.2 million for 
the Office of Chief Technology Officer for a first response 
land line, wireless system, and then $32.4 million for a city-
wide secure data center facility. I know you have talked a 
little bit about that.
    How long, for both of these, would it take to spend that 
money? In other words, what is the startup?
    Ms. Kellems. Some of the things we could begin immediately. 
If you look at the second category--I am not going to find the 
page in here, but the first response wireless communications, 
that is obviously our highest priority. It is the 
infrastructure that will allow all the first responder agencies 
within the District to communicate as well as with the outside 
jurisdictions, getting everyone on a common radio system, a 
common set of infrastructure.
    The Office of the Chief Technology Officer to put things 
together, things that are short-term and intermediate 
solutions, we could be deploying them--we could be procuring 
them immediately and deploying them within about 30 days, begin 
the deployment. Some of it is obviously longer term, in the 
more 9 to 12 month range, if you are talking about building 
additional radio sites, so really everywhere in the range of 
that.
    Senator DeWine. Excuse me, does it all fit within 12 
months?
    Ms. Kellems. I am going to say most of it. There are 
certainly items in there that may end up getting pushed beyond 
that deadline, but the idea of that is very short-term. In that 
category of stuff we are talking about very short-term 
solutions.
    The second category is a longer term proposition, again 
some of which would begin immediately, but that would continue 
more into the 24-month time frame. Its focus is, of course, 
secured network, protecting against cyber terrorism as much as 
anything, and ensuring constant redundant secure information 
systems.
    Senator DeWine. Assuming both of these were completed, 
where would that put you in relationship to other major cities 
in the country? Of course, it is a moving target. I understand 
everyone is trying to get caught up, but what is the benchmark 
here?
    Ms. Kellems. On the first category, that would put us far 
beyond many jurisdictions, or many regions. The issue there, 
again, is the interoperability of the various communication 
systems. Here in Washington and the surrounding counties we 
have about a dozen different radio systems that our public 
safety folks are on, and this has been a persistent problem for 
25 years that people have been trying to resolve--since Air 
Florida, exactly.
    What we are suggesting is that we think we can solve this 
problem in a very short time frame by building out an 
infrastructure that would support everyone migrating to this 
system. Everyone has the same problem, which is lack of 
infrastructure right now.
    Senator DeWine. One of the other big-ticket items is 
District of Columbia public schools. I wonder who can talk to 
me a little bit about that.
    Ms. Kellems. I think I can, unless Peter wants to.
    Senator DeWine. And again--well, go ahead.
    Ms. Kellems. The idea there was that shortly after the 
11th, as you mentioned, Senator, there was a lot of concern 
about making sure that there were adequate measures to protect 
the children.
    It was particularly significant, because we kept all of our 
children in school, which we think was the right decision on 
September 11, with hundreds of thousands of parents and 
families struggling to get out of the city and pick up their 
kids, and in those conversations a lot of people raised 
concerns not just about the post-disaster response, but just 
about the preparedness of children. Are we training them 
effectively, are there facilities secure, so there were a 
couple of big things in there.
    Metal detectors, which would be used all the time, in more 
sort of a preparedness sense than a response sense, and some 
architectural landscaping, those kinds of things, to harden our 
schools, make the school buildings themselves a little more 
capable of withstanding, God forbid, some kind of cataclysmic 
event. That is what the bulk of that cost is.
    Senator DeWine. Would you anticipate the use of metal 
detectors all the time?
    Ms. Kellems. They are in there. I think that is a policy 
decision that would need to be made between the Mayor and the 
Superintendent. The idea is, though, certainly that they would 
be available any time there is a threat, and if a decision is 
made to use them on an ongoing basis they would be available 
for that.
    Senator DeWine. Break out for me, if you could, of the 
$65.6 million, what are the big-ticket items there?
    Ms. Kellems. I am sorry, are you still in the public 
schools?
    Senator DeWine. Yes, still in public schools.
    Ms. Kellems. That was done essentially on a per-school 
average cost. We have I think 175 school buildings. We assume 
that half of them are fairly large, half of them are fairly 
small. The kinds of things you do are move the road or the 
driveways further back from the schools, put harder barriers 
between the schools and parking lots, things like that, that 
you are really securing it externally, also reinforcing the 
facilities that you have inside to withstand any kind of shock 
or explosion, to have safe places in the schools. It is that 
sort of thing.
    Senator DeWine. Thank you.
    Senator Landrieu. Senator Reed.
    Senator Reed. Thank you, Madam Chairman.
    First, let me associate myself with Mayor Williams' remarks 
commending the police officers and firefighters and emergency 
medical technicians in the District, and also their colleagues. 
One reason I have to say that is my brother is a firefighter 
and it makes the peace at home, but thank you, ladies and 
gentlemen, for what you have done, and Dr. Walks, your 
department, too.
    Let me just follow up quickly with some questions and 
issues that have been raised. First, just a general point. Are 
there competitive grant programs that might be able to satisfy 
some of the needs, and are you applying for those?
    Mr. LaPorte. Yes, let me speak to some of the grant 
program. The Department of Justice specifically had a planning 
and equipment grant. In fiscal year 1999, the city was treated 
as a municipality. We were able to apply for $200,000. We had 
done that. In fiscal year 2000, the appropriations defined 50 
States specifically. At that time, I was the Director of 
Emergency Management in Massachusetts, so I know Rhode Island 
very well. I grew up in Attleborough, right on the border.
    In 2000 we made a request to apply for those funds. We were 
denied initially, but with some persistence the Department of 
Justice invited us and the territories to participate in that 
program, so we are fully engaged in those programs, applying 
for the maximum amount of money, as well as asking for more 
than they are saying we can get. We have applied for those 
programs, we have finished our three-part assessment, which is 
threat vulnerability and public health, which is an online 
submission. We are about 10 days away from actual submission of 
that, so every program that Justice has we have knocked on 
their door.
    Senator Reed. Very good, and you will presumptively 
qualify, after your plan has been accepted, for the actual 
equipment grants?
    Mr. LaPorte. And those moneys specifically equal--in 2000 
it is $361,000, same as in 2001. In 2002, we have yet to see 
exactly what that appropriation is.
    Senator Reed. But that would barely put a dent in the needs 
that you have identified today.
    Mr. LaPorte. A very limited amount of money, and 
specifically the money is categorized for only specific items 
that you can use it for.
    Senator Reed. Thank you. Let me follow up on the point that 
the chairlady made, and that is, you have had a succession of 
table top exercises. Have you actually scheduled an operational 
exercise, because I think the quantum leap in knowledge from 
going from inside an air conditioned room with telephones and 
discovering the problems to having people drive around looking 
for the address and not finding it is a huge increment in 
knowledge.
    Mr. LaPorte. It is our plan, as we go from table tops to 
functional to full-scale, it is our plan to do that. In fact, 
the District in May of 2000 participated, as one of three 
jurisdictions in the country, in the TOP OFF exercise, which 
was a full-scale exercise, full field exercise. That certainly 
brought up a number of issues, and it is our intent to go 
forward aggressively with a number of exercises testing the 
wide varied challenges that we will face.
    Senator Reed. But you have not set a date yet. You have not 
set a schedule yet, is that correct? There is no schedule?
    Ms. Kellems. That is correct, there is no schedule yet.
    Senator Reed. And what is inhibiting you, money?
    Ms. Kellems. A couple of things. We think it is a useful 
exercise to go through what we are now. The paper version of 
this, you would be surprised how much you can gather sitting 
around a conference table.
    I think that once we are quite certain we have been 
through, I would guess, a couple more of these, we will deploy 
out in the field, but yes, you are acting with fake equipment 
at this point. There is a lot of stuff we do not have that we 
would want to use in that circumstance, and so it will be a 
hybrid, somewhere between a table top and doing an exercise 
with the real thing, but not being equipped to do it.
    Senator Reed. Thank you.
    Let me follow up a final category with Dr. Walks. As Ms. 
Kellems suggested, a lot of the police and fire coordination 
has been going on for years and years and years, because of the 
nature of Washington and the nature of incidents here, but you 
were thrust into a very, virtually unique situation, and I 
would suspect it exposed a great deal of problems with 
communication, with collaboration and coordination. If you 
would elaborate on that, that would be useful.
    Dr. Walks. Thank you, Senator. One of my challenges when I 
talk about what we have done in the last several weeks is to 
sort of balance that, look at what we did, and at the same time 
say, but we still need a lot more, because there was a 
tremendous amount of good that came out of the last several 
weeks, and the place I always start is with the Mayor's 
leadership, because we were ordered by the Mayor to prepare a 
day one plan, what if, what would you do if.
    The department of health has been working for about 5 years 
regionally, so that part is not new to us. The Council of 
Governments has supported those efforts in a real way, and we 
have a regional plan to respond to bio and chemical attacks. We 
had to put that plan into place, and it actually worked pretty 
well.
    It is built on relationships. It is built on not just 
knowing who you will call, but knowing in terms of a 
relationship who you are going to call. We had tremendous 
responses from our neighboring jurisdictions. Georges Benjamin 
knows me as Ivan, I know him as Georges, Ann Peterson, who was 
in Virginia a couple of weeks ago, those kinds of relationships 
allowed us to perform very well.
    But what we also found was, this is part of the kind of 
leadership we have in the District. The folks who had to work 
were willing to come to work and stay. We had people do their 
regular day job, then go and answer the hotline phones 
overnight with a pack of clothes hanging in the cubicle where 
they worked. They would go downstairs and shower, then go back 
to work the next morning. That kind of a commitment is a 
testimony to the Mayor's leadership and their willingness to 
work for him.
    The danger in that is that it really pointed out a 
tremendous problem for us. We are dependent on people going 
above and beyond the call of duty in ways that they are not 
healthy over a long period of time. We are dependent on a lot 
of person-work.
    For example, the communications system that Deputy Mayor 
Kellems talks about is critical. We did a lot. We did it with 
paper and with people. We had folks actually driving out to the 
hospitals, looking at patients, getting information real-time, 
so we could meet the Mayor's mandate of having clear 
information real-time every day, so that there was no need for 
speculation about what was going on.
    I think that what we have seen in the District, 
particularly around what we have done with our health partners 
is, you have seen clear commitment, absolute response to strong 
leadership coming out of the Mayor's office, but then 
recognizing that that is not how we really need to do this 
going forward. We really need the kind of technical support 
that is being talked about, and we need to make sure that the 
relationships we have built we do not abuse by asking people to 
work as individual people outside of a system that we know we 
can put into place.
    Senator Reed. Thank you, doctor.
    One just final question, which, looking over the material, 
the national pharmaceutical stockpile, would you just very 
briefly explain what it is?
    Dr. Walks. Brief answers are not my strong suit, but I will 
try.
    The national pharmaceutical stockpile is the pile of drugs 
that the Government has, the Federal Government has in case 
they are needed in a particular jurisdiction. We actually used 
a lot of Cipro and doxycycline from that stockpile over the 
last couple of months.
    The challenge with that for us as a local jurisdiction is, 
we are supposed to get that handed to us when the Mayor calls 
and asks for it. What we do with it would be a challenge. We 
saw tremendous Federal cooperation. They brought drugs and 
people this time for us. What we are supposed to do is to 
provide the people, and they are supposed to bring the drugs. 
If they had just dropped off those drugs this time, we would 
have had a problem. We did over 17,000 patient visits in a 
little over a week. That is a tremendous amount of person-
power, and so our planning needs to include the people, as well 
as the medication.
    Senator Reed. Thank you, doctor.
    Thank you.
    Senator Landrieu. Thank you. Just a point on one of the 
items that has caught my attention--many of them are very, very 
important, but this child care center, center for emergency 
personnel that you request under your Department of Human 
Services, just if somebody just wants to comment briefly, it 
would seem to me that $24,000 is a minimum amount to prepare 
some sort of arrangement for personnel workers, particularly 
workers that would be for extended periods of time, as we have 
seen with the New York City situation.
    And what an important part of any emergency plan this would 
be for all of our cities and States, to have some system for 
supporting the families of the emergency responders, because 
then everyone benefits if the responder, him or herself, can 
really be fully engaged in the work, not having to worry about 
their own personal family or children, would seem to me a very 
wise expenditure of dollars, and it is only $24,000, so could 
you, Ms. Kellems, comment?
    Ms. Kellems. Sure. What we are trying to do is build on 
some resources we already have, use existing recreational 
facilities, or existing other facilities. We would do some 
minimal build-out of them. What we would end up staffing them 
with are D.C. government personnel who are trained to work with 
the kids through the Department of Human Services, or the 
Department of Parks and Recreation.
    As an overall note, and I will come back to that in just a 
moment, the request that we have here is essentially one-time 
capital investments. What you do not see reflected in here is 
ongoing personnel costs. We anticipate that if we did have a 
major event and we had to do something like this, that there 
would be a state of emergency and much of our personnel cost 
would be a reimbursable expense through FEMA, or through other 
means, as we have seen, like a September 11 event, so this, of 
course, would not cover personnel, which would be the bulk of 
the cost.
    This is to do some retrofitting of some existing facilities 
to make sure that they could accommodate kids, to buy some of 
the equipment if we had to have children sleeping there, to 
make sure we have sufficient goods there.
    We have also worked with public schools and some of the 
private sector organizations to see what they have. This 
obviously would not be a facility that we would keep on an 
ongoing basis, but something we could activate to get at the 
issue you mentioned, which was a very, very high priority, and 
a very real issue even on September 11 and the few days 
afterwards.
    Senator Landrieu. Along those same subjects, it has come to 
my attention that several of the schools in the area have been 
putting their own sort of emergency plans together for how they 
would respond if parents cannot get to pick up the children on 
time, or highways are blocked, or bridges, or roads.
    It might be for the public schools here to think, if they 
have not addressed that--I did not see it outlined in the 
documents submitted, to address the possibilities of overnights 
for some children, which would be safer maybe for them to stay 
at school than to try to traverse roads or move across town, 
whether it is traffic or other substances or chemicals.
    So I do not know if the public school system--perhaps at 
our next hearing we could have some testimony from public 
schools. It just seems to be on the minds of so many parents, 
which is really to think first of our children and then of 
ourselves, that the public schools would play a very important 
part.
    But Ms. Kellems, let me ask you this. This list that 
Senator DeWine has pointed out, and I appreciate his questions 
about the larger ticket items, but this $250 million of 
primarily equipment, capital improvements, et cetera, under the 
plan, who is given the task--and maybe, Mr. Mayor, you could 
tell us this--to coordinate not only the purchasing if this 
amount of money was provided, but the management of these 
resources to make sure the proper equipment was purchased, and 
the proper training so that everything could be maximized? Who 
is tasked, Mr. Mayor, with that responsibility for sort of the 
accounting and management of this $250 million request? And I 
know that it goes to each different department, but is there 
some----
    Mr. Williams. The overall point of coordination and 
accountability to me would be Margret, as the Deputy Mayor for 
Public Safety. She would be backed up on the accounting and the 
documentation side by her independent and beloved CFO, Nat 
Ghandi, who would do an excellent job, I think, in ensuring 
that all of the documentation is there to ensure that we are 
doing all the cross-referencing between the receipts and 
expenditures we are making, so that would all happen.
    And then John Koskinen, our city administrator, who comes 
with a tremendous, wide-ranging experience of Deputy Director 
of OMB, and the private sector turn-around specialist, would 
see that Margret is getting all the support she needs from all 
of our agencies, especially our internal support agencies, 
whether they are personnel, or technology, or procurement.
    Senator Landrieu. I see that Mr. Rogers has arrived. I do 
have one or two questions for you about the regional 
commission. Thank you for joining us. But Senator DeWine may 
have a few additional questions or comments.
    Senator DeWine. Go ahead. I have a few more.
    Senator Landrieu. Mr. Rogers, could you just explain--the 
presentations have been excellent, but several Senators have 
expressed to me their concerns, particularly the Senators from 
the other jurisdictions, Maryland and Virginia, about if our 
plan is being coordinated with those jurisdictions, and in your 
role could you please maybe elaborate on some of the sort of 
pre-September 11 opportunities, and then post September 11, and 
what we have either learned, or some of the challenges that 
still may be out there based on interjurisdictional 
cooperation?
    Mr. Rogers. Well, Senator, the Council of Governments has a 
long history in this region of coordinating with the 
jurisdictions in the area of mutual aid agreements. There have 
been longstanding mutual aid agreements in the region in public 
safety and fire, police. Particularly there is assistance given 
when needed.
    Just recently we completed an 18-month process of 
developing a planning guidance for the health system response 
to a bio event. That was spoken to by Director Walks, and that 
guidance proved, though it was released, I guess finished on 
September 6, it served as an excellent framework for not just 
the District, but the region responding to the events dealing 
with the anthrax issues.
    I guess for the first time we can say that not just the 
local hospitals were talking to the District health department, 
but the health officers in Maryland and Virginia and the health 
officers committee within COG, which represents the local 
jurisdictions, were also participating, as well as the Private 
Hospital Association in Virginia and Maryland.
    So there is a long history of COG serving as a forum for 
discussing a number of issues in public safety and health, and 
emergency management, et cetera.
    Our role on September 11 and those events was in working 
with our chief administrative officers we reached out through a 
regional conference call which has been a COG role generally in 
planned events like snow, when we have advance warning, but 
there was a conference call for the chief administrative 
officers, I think the police chiefs and fire chiefs and others, 
to talk about the events of the next day, and the school 
superintendents, and it was there in that conference call that 
the decision was made that the schools would be closed on the 
12th but the Governments would be open on the 12th, and that 
was a very important decision.
    There is no one in the region, because of our complexity 
and the different jurisdictions, that has the authority to say 
to any one jurisdiction you must do X, Y, or Z, so we have the 
coordination, and through sharing information generally we are 
able to come to a decision of what is in the best interest of 
the region.
    Senator Landrieu. Well, I can appreciate that, but I would 
just suggest that we are all going to probably have to take 
this to a little higher step, and I think it is a challenge for 
all regions around the Nation, because you know, we have all 
operated on sort of natural disasters, snow or hurricanes or 
floods or tornadoes, or whatever--we do not have snow in New 
Orleans, but we do have hurricanes and tornadoes, but there is 
a different kind of public mentality or panic that sets in when 
it is an attack and not a natural occurrence which causes all 
sorts of other things to trigger, and that is what we have to 
be prepared for.
    That is what we are preparing for. It is not just your 
ordinary emergency. It is not a naturally occurring event, and 
it is the sense of, you know, I am willing to follow orders in 
this situation, but I want to make sure the orders I am getting 
are right, the information I am getting is accurate, and the 
person giving the orders is somebody that I trust, and it makes 
it very complicated in a region where maybe the residents of 
the District might look to the Mayor, but the employees of the 
District look to their own Governors, or their own elected 
officials, and then you have got the added complication of 
having any number of Federal agencies that have their own 
hierarchy.
    And so I want to urge us, as we review this document and 
look at these numbers, to really understand the dynamics of 
these emergency plans that have to come together in a wholly 
new way, and I know there is some discussion, well, but if you 
decide to close the schools here, and then Virginia did not 
close, and Maryland closed, and then it was--you could cause 
considerable problems over a long extended period, and we are 
struggling with that. I am sure the Ohio elected officials are 
having those same discussions.
    So on that line, is there any formal regional--is it your 
organization, or is there a formal, regional commission 
established to help sort through some of these questions, or 
would that be done with your organization?
    Mr. Rogers. We are beginning that process. We have started 
that process. There is a COG task force on homeland security 
and emergency response. It includes representation from around 
the region, and including the Federal Government. The Federal 
Government in the form of FEMA, the Washington Military 
District, OPM, are important players in this process.
    It is our hope and expectation that the regional plan will 
really be a composite of the local plans. COG's role is to help 
fill in the gaps, to identify the gaps and help fill in the 
gaps, and that is what we are working on.
    Senator Landrieu. Chief, just--and I will turn to Senator 
DeWine in a minute, but if you could just comment for the 
testimony. You have listened to all that has been said. For the 
police, what would you list as your number one or number two 
priorities, or what you think some of the immediate 
challenges--I know they are many, but what would be sort of in 
your mind, having gone through the experience of September 11, 
what would you like to call to our attention at this point?
    Mr. Ramsey. As it relates to the budget request, the need 
for equipment is first and foremost. Our first responders do 
not have the kind of protective gear they would need to go into 
a hazardous situation.
    We just recently got 75 protective suits in that we had 
ordered for our emergency response team--this was our SWAT 
team, our bomb disposal unit and so forth, and they are 
beginning training, but the vast majority of our police 
officers, and we have 3,600 sworn officers, that first 
responder that gets that initial call, not quite knowing what 
it is, needs basic equipment to be able to be protected if, in 
fact, there is something chemical or biological that had been 
released, and that is very, very important.
    From the standpoint of some of the planning efforts, I 
think the whole issue around transportation is probably the 
biggest concern that I have, and we have done an awful lot in 
terms of the planning. Dan Tangherlini, who heads our Division 
of Transportation, has done an excellent job putting together 
that particular emergency support function, but it really 
points to the need for regional coordination, because in the 
event of, let us say, an evacuation, all the traffic cannot 
stack up at the border.
    If you do not have a traffic plan that extends well out 
beyond your own borders, certainly outside the beltway, 
immediately outside the beltway, we are going to have some 
tremendous problems. That requires a tremendous amount of 
coordination between jurisdictions, and you may have just the 
opposite.
    It may not be evacuation. It may be quarantine. Perhaps 
there will be situations where people--it is not in anyone's 
best interest that they leave a given area. What do you do with 
them? These are people that are just in here to work. Their 
homes are outside the District.
    Those are very, very critical issues that we are working on 
to come up with the kinds of plans, but it requires a great 
deal of regional involvement, because it affects not only the 
district, but all of the surrounding jurisdictions as well.
    Senator Landrieu. We intend to help you with this equipment 
need, but what about your training, just very briefly, in terms 
of training for hazmat?
    Mr. Ramsey. Yes, ma'am. Last year, we had a 4-hour block of 
instruction with our mandatory in-service training, exposing 
officers to what is a mass destruction, and kind of a 
theoretical conversation about what to do in the event of that. 
Of course, everything now has taken on added significance. We 
now in our current block of 40-hour instruction actually have 
devoted 8 hours of training to the responsibility of first 
responders, and how to quickly identify a situation that you 
may come up against, and the kind of things you should be 
doing.
    So training, in fact with the 75 suits we got today, there 
is a tremendous amount of training for people to be able to 
operate with those things on. One of my assistant chiefs, his 
son is a member of the FBI's HRT team. They have been 
practicing for sometime with that emergency gear on, and these 
are people who train every single day, are in the best physical 
shape, and they are still limited in the amount of time that 
they can spend actually functioning in that suit, so getting 
the equipment is one thing. Training is a totally different 
thing.
    Senator Landrieu. Do we have a regional training site for 
police, or regional training site for firefighters?
    Mr. Ramsey. No, we do not have a regional--we do a lot of 
training together, but it is not really a situation where there 
is any kind of real plan. We do some joint training exercises 
through COG with our police chief subcommittee. We have a 
training subcommittee and there are some joint trainings that 
take place, but it is not nearly as extensive as it should be.
    Senator Landrieu. Could the fire chief just comment, then I 
will turn to Senator DeWine for some closing questions, because 
we are going to try to recess close to 4:00.
    The same question, fire chief. I know you have a long list, 
but what are the two or three things that really jump to your 
mind that you would like to share with us about your immediate 
needs?
    Mr. Few. Well, after September 11, and during September 11, 
we understand that when we have the adequate equipment, that we 
do a very good job, and equipment is very important to us, and 
we know that when we have that equipment we do a good job, and 
we do not have a lot of reserve at this point.
    Our city is a city that has so many targets in the city 
that we have to have the proper equipment, and we realize we 
cannot depend on a lot of people in the first 24 hours, or 48 
hours of an incident, that we have to have that equipment, 
because we have so many firefighters that are coming in from 
off duty. We do not have one fire service here in D.C., 
although we do a very good job with mutual aid. After September 
15 we realized we could not count on a lot of people on mutual 
aid, so equipment is very important to us.
    I listened to Senator DeWine speak about even pediatrics 
life support systems and all, and I realized 6 months ago that 
that is important, and we put some of the actual protocols in 
place, and I have a lot of equipment on some of our individual 
trucks, but I do not have enough, and so that is important.
    So equipment is the biggest issue, and then training is 
another issue, and although we keep our training up, and even 
that day we were having hazmat training on September 11, 
training is important. It has to be ongoing. That is why you 
have a quality service when you have training ongoing.
    Senator Landrieu. Senator DeWine.
    Senator DeWine. Does anyone on the panel feel comfortable 
in regard to talking about Metro's request? We have a request 
for $190.1 million.
    Senator Landrieu. We are going to have them at the next 
hearing.
    Senator DeWine. We are going to have them separately, okay.
    Let me ask you then, Chief Ramsey. Chief Few has commented 
a little bit about my question about pediatrics. I wonder if 
you have taken a look at that issue and whether any of the 
things that you would be dealing with would be uniquely dealing 
with children. Well, let me say that we think it is very 
important to make sure that we have BP cuffs that fit 
pediatrics.
    I realized that 6 months ago, that we need to change our 
protocols, and one of the good things about the Mayor's 
leadership, and Dr. Walks spoke about that, has made us 
actually join at the shoulder, and Dr. Walks and I, we have 
looked at the medical protocols on pediatrics. I do have a 
number of equipment, like I said, in place, and I am expected 
to--and if we get this money I want to make sure that we have 
pediatric equipment on every piece of equipment that is 
necessary, because you do not know which equipment is going to 
get there first, so we like to see that in our community. With 
the number of visitors that we have in our community it is 
absolutely necessary that we do have that type of equipment in 
place.
    Senator DeWine. Chief Few, thank you very much. Chief 
Ramsey.
    Mr. Ramsey. Well, Chief Few and Dr. Walks have been 
handling the medical aspect of it, but I do have a concern as 
it relates to children, and that would be during an event, 
having children that perhaps are in school, day cares, 
separated from parents, trying to reunite families. That was a 
huge issue in New York City, when we had a chance to visit 
there. That took a lot of resources, to be able to make sure 
that the kids were safe and secure, and somehow we were able to 
reunite, and a lot of that with our children and family 
services and the police department, we would be working 
together to make that happen.
    Senator DeWine. I think it is clear from my conversation 
with both of you today, and conversations I have had with other 
officials, and other fire chiefs and fire departments, as well 
as police, that what we learned in New York and are continuing 
to learn, tragically will be of benefit if we ever have another 
event like this, that as you just said, Chief Ramsey, you 
picked up things from that trip and the conversations you have 
had with your colleagues there.
    Dr. Walks. If I could just add, Senator--excuse me--there 
are two points that I think are critical. Pardon me for 
interrupting, with respect to children. One we have not touched 
on today is the mental health impact on children. Children that 
go through these kinds of disasters have a critical need for 
emotional support.
    The other thing is just making sure we assess the 
environment. One of the things in the Department of Health's 
request is that kind of technology that will let us really 
protect the first responders on the scene. We have requested 
the kind of technology that lets us safely go to a scene first 
to assess what chemicals may be in the air. The fact that 
someone blows up a bridge does not mean they do not put other 
things there besides just the explosion, and I think that that 
sort of integrated approach between health and police and fire 
is what the District is really modeling here.
    Senator DeWine. Good.
    Senator Landrieu. Very good point.
    Senator DeWine. Mayor, let me ask one final question, and 
you touched on this a little bit, but I do not think I heard 
you specifically respond to this, and that is, with the decline 
in tourism, have you calculated exactly what that cost has 
been. What is it running per week or per month to the District? 
I know it is early in this and we hope it turns around.
    Mr. Williams. Have not been in the CFO job for a little 
bit, so my arithmetic may be off, but we are looking at the 
duration of this going on as long as 18 months. Right now we 
are looking at the impact of $200 million to our District 
budget.
    Senator DeWine. Excuse me, $200 million----
    Mr. Williams. Dollars to our District budget. That is $750 
million overall to the economy.
    Senator DeWine. And that is projected over what period of 
time?
    Mr. Williams. Pardon me--for 18 months.
    Senator DeWine. What has it been, though? What is the 
history? What has it been since September 11? Do you have those 
figures?
    Mr. Williams. Well, we are tracking that. I am working with 
our private businesses and our task force tracking that. Julia 
Friedman, who is the District's chief economist, is monitoring 
that as well.
    Senator DeWine. Excuse me--you do not see that in revenues, 
those figures are not----
    Mr. Williams. $200 million for this period is a loss to the 
District's budget. We would otherwise have had this revenue. We 
will now not have it. Fortunately, because of the leadership of 
folks like Senator Hutchison, and you know as a member of this 
committee--well, everybody knows, we have had a very, very 
conservative approach to our budget over the years. We have 
built up cash balances. We have built up reserves, and that now 
turns out is going to help us in a very, very difficult 
situation, but we still are in a difficult spot, even with 
those reserves.
    I just think in making the case that we are going to need 
to make to our colleagues, one of the things that we need to 
look at is the good, hard data that you gave us today and that 
we hope you would continue to give us in regard to the drop in 
tourism. I mean, we all see it. Anyone who works around here, 
we see it every day. We see it anecdotally, but we do not have 
the figures, and obviously you are the ones who do have those 
figures. I would just state the obvious: it is important for us 
to continue to have those figures.
    Mr. Williams. Absolutely, and we work closely with your 
staff, and we want to provide the regular flow of information 
on this as we get it, absolutely.
    Senator DeWine. Thank you. Thank you very much.
    Senator Landrieu. Thank you, and I really appreciate your 
questions and your help, Senator.
    Just in closing, let me just follow up on that particular 
point, and you know, we have seen such a focus and want to be 
so helpful to New York and New Jersey and that whole region. 
There have been literally billions of dollars that are leaving 
Washington to try to help basically stand up the city and 
rebuild, and I want to try to have the opportunity to have some 
similar focus on D.C., not that the attack itself was here in 
the District, because it actually occurred across the river, 
but the consequences of that have been devastating to the city, 
and it is not just any city, it is the Nation's Capital, so as 
the symbol, it has taken on a greater hit than even cities that 
sustained themselves.
    There have been great losses in Nevada. Senator Reid has 
spoken to us many, many times, as Senators from that State. 
There have been great losses in my own State with the 
experience, because of course New Orleans and many of our 
communities are really tourist-related, but to my knowledge no 
city, except outside of New York itself, New York and D.C., 
have been directly affected for obvious--different, but obvious 
reasons.
    So mayor, I want to pursue that with you, because I think 
it is only important to get those facts out there.
    Mr. Williams. If I might say, Senator, I think one thing 
that--you know, Speaker Hastert and Majority Leader Daschle 
were both good friends of the city, and President Bush 
certainly has in many different ways, and I would not presume 
on them that they want to keep their facilities closed. I know 
they do not. I know they want to get them open as quickly as 
possible, but when you talk to educators and leaders of trips 
around the country, one of the big impediments, for example, 
for bringing school children back to the District is getting 
our national symbols open again. I mean, it is absolutely vital 
that we do that.
    Senator Landrieu. Because the city itself depends on those 
revenues. It really is quite--this emergency--let me just say 
in conclusion that I really appreciate all of your testimony. 
Mr. Mayor, in your opening comments you said, this plan will 
help us. It galvanizes our resolve to outthink, outsmart, and 
outplan any terrorists that might target the District of 
Columbia, and I hope that we will keep that goal in mind, and 
we would like to help you achieve that goal.
    Our next hearing hopefully will be after Thanksgiving, and 
we are going to focus the first part of this next hearing on 
the emergency management plans of the regions and how it 
relates to the District, so we may have some regional 
representatives and invite some of you back to participate in 
that discussion to see how the coordination and planning 
regionally and training opportunities that could be shared by 
the region, and then probably the second part of the hearing 
will be about the public schools emergency management plan and 
Metro as independent agencies, and we may, Senator, get into 
some questions about the schools financial situation, because 
the audit will be completed by then and we will have a little 
bit more information to go on.
    So are there any closing comments?
    Thank you all.
    [The following questions were not asked at the hearing, but 
were submitted to the District for response subsequent to the 
hearing:]

            Questions Submitted by Senator Mary L. Landrieu

            Questions Submitted to Mayor Anthony A. Williams

    Question. Given that OMB has only recommended $25 million for the 
District to assist with its emergency preparedness, what impact would 
such a funding level have on the City's ability to prepare for a 
terrorist attack?
    Answer. As you know, in its fiscal year 2002 Federal appropriation 
to the District, Congress provided the city with approximately $13.5 
million for domestic preparedness activities. Our highest priorities at 
this point are to fund those planning activities, personal protective 
and emergency response equipment, and training to our first responders 
who would be first on the scene to manage a catastrophic event.
    With only $25 million, the District will have to forego a number of 
important emergency preparedness investments. For example, we will not 
be funding transportation-related equipment that would facilitate 
traffic control and management in a large-scale emergency. We will not 
be in a position to make critical investments in information technology 
and telecommunications for local and regional public safety 
interoperability. Nor will we be able to fund most of the much-needed 
health response equipment such as a mobile hospital facility, chemical 
and biological monitoring and testing equipment, and decontamination 
and containment space in the local hospital facilities. The investment 
in mental health training and outreach in preparation for future 
disasters will also not be funded.
    Question. In the event that Congress cannot fully fund the 
District's $250 million request, what items in the request are your 
highest priorities?
    Answer. Specialized Weapons of Mass Destruction (WMD) and hazardous 
materials response equipment, personal protective gear, detection 
equipment and supplies, and planning and training for first responders 
are our highest priorities. We must ensure both that we have the 
capacity to respond to emergencies and that the safety of our first 
responders is not compromised during that process. Each day, our 
police, firefighters, and emergency medical personnel continue to 
respond to potentially dangerous or life-threatening situations such as 
suspicious packages and bomb threats. We can not let them do that 
without adequate equipment.
    Question. The District has created a detailed Emergency Operations 
Plan outlining the roles of various City agencies during an emergency. 
Are there any aspects of the Plan that the District cannot implement 
without the $250 million in funding?
    Answer. The new District Response Plan (DRP) is based on the same 
format as the highly successful Federal Response Plan. In it, we have 
identified fifteen (15) Emergency Support Functions (ESFs), each 
responsible for carrying out a unique emergency function. While the 
basis for the DRP is solid and the assumptions correct, it is necessary 
to continually plan, train and exercise the Plan in order for it to be 
effective, and this takes a large initial investment in human and 
physical capital. While a written plan goes a long way in meeting our 
legal requirements, it must be exercised. These efforts require 
continual and ongoing fiscal support for such items as equipment, 
overtime (for backfilling positions), supplies, and the actual 
resources to respond when an actual WMD event occurs. The bottom line 
is that the Plan can not be fully and effectively implemented without 
the funding requested.
    Question. Has the city submitted the Emergency Operations Plan for 
an independent evaluation?
    Answer. Yes. The District officially submitted a working copy 
(DRAFT version 3.0) of our new District Response Plan (DRP) to the 
Federal Emergency Management Agency on October 5, 2001. FEMA's 
Readiness, Response and Recovery Directorate staff thoroughly reviewed 
the document and provided detailed comments and suggested improvements 
on November 27, 2001. These comments were reviewed by the Mayor's 
Domestic Preparedness Task Force on December 6 and the modifications/
suggestions are currently being integrated the final version of the 
Plan. The DC Emergency Management Agency is working with all of the 
lead ESF agencies to ensure that the FEMA comments are folded into the 
current draft (version 8.0). Each ESF that involves outside Federal 
cooperation is also being reviewed by the participating Federal 
agencies in each subcommittee on an ongoing basis. The DRP is expected 
to be presented to the City Council and published by mid-January, 2002.
    Question. What impact have the terrorist attacks of September 11 
had on the economy of the District? Please give specific examples of 
jobs lost and the employment sector.
    Answer. The District anticipates $750 million hit to the economy, 
which will result in a $100 million loss in fiscal year 2002 revenue. 
Hotel occupancy was down more than 50 percent and approximately 3,000 
hotel and restaurant workers lost their jobs. In addition, 50,000 
tourism jobs across the Washington metropolitan region are in jeopardy.
    Question. What adjustments is the city making to its financial plan 
in fiscal year 2002 and beyond considering the economic slowdown?
    Answer. We are monitoring the economic conditions of the District 
and will adjust the financial plan as necessary. The District is facing 
real challenges because of the national economic slowdown, the related 
increase in unemployment and the new security requirements resulting 
from September 11. We are determining the magnitude of the spending 
pressures and agencies have begun to identify areas where spending can 
be cut and savings can be achieved.
    Revenues drive the financial plan and will be revised in the 
spring. At that time, we will know if, and/or how much, programs will 
have to be reduced. Though these are austere times, the District will 
maintain financial integrity and live within the constraints of the 
budget.
    Question. What steps are being taken to ensure that schools and 
major employers emergency operations planning is coordinated?
    Answer. The Superintendent of the DC Public Schools is a standing 
member of the Mayor's Domestic Preparedness Task Force and is invited 
to participate in all of the meetings and proceedings of this body. The 
DC Emergency Management Agency is also working with the schools in 
developing a hazard identification workbook. EMA has provided over 
1,000 ``Master of Disasters'' curriculum kits, and provided a free 
tone-alert weather radio to each DC public school. In addition, the DC 
Emergency Management Agency has been working with the DC Consortium of 
Colleges and Universities (representing 12 colleges and universities 
with a daily population of nearly 150,000 students/staff) to integrate 
the Consortium as a ``one-stop shop'' in its emergency notification 
protocol. Various meetings with the Consortium have occurred since 
September 11.
    Additionally, the Task Force and its various subcommittees have 
been working with the major employers in the District, with the largest 
being the Federal Government in coordinating emergency response and 
notification efforts. Most recently, DCEMA and the Mayor's Office has 
instituted a direct hotline to the Federal Office of Personnel 
Management (OPM) to coordinate activities such as potential 
evacuations, government shutdown procedures and overall information 
sharing before, during and after a major emergency. Finally, DCEMA has 
begun initial discussions with the major private employers through 
organizations such as the Building Operators and Managers Association 
(BOMA) in developing coordinated building evacuation procedures that 
can be implemented not only during terrorist threats, but for any 
disaster event.
    Question. Do employers, Federal and private, notify the city and 
the school system when they decide to close in the event of an 
emergency? What kind of notification system is in place for when 
schools close due to an emergency?
    Answer. Refer to the reply to previous question.
                                 ______
                                 

          Questions Submitted to Deputy Mayor Margret Kellums

    Question. The District has requested a great deal of funding for 
training--particularly for the Fire/EMS Department and the Police 
Department. Training is crucial to effective implementation of an 
Emergency Operations Plan. Can the District utilize training facilities 
in the surrounding jurisdictions in Maryland and Virginia? Is any 
training available through the Federal Government?
    Answer. Much of the training contemplated in the District's request 
is provided at no charge by the Federal Government. As we cycle large 
numbers of staff through training programs, it will be necessary to 
maintain our baseline staffing levels to ensure that service delivery 
does not suffer. In order to accomplish both of these goals--training 
and maintenance of baseline staffing levels--we must backfill using 
overtime. Thus, much of the District's request represents the cost of 
allowing employees to attend training at existing facilities. We are 
currently investigating training opportunities in the surrounding 
jurisdictions as well. Not only do we intend to take full advantage of 
the local and State-level opportunities, we are planning to engage in 
regional training and exercises with the public safety agencies in the 
surrounding jurisdictions.
    Question. The City has requested $867,306 for the Department of 
Consumer and Regulatory Affairs. Please describe what this Department's 
role would be in a terrorist attack.
    Answer. The Department of Consumer and Regulatory Affairs (DCRA) is 
the regulatory agency responsible for ensuring the structural integrity 
of buildings. Although DCRA would not be a first responder in the event 
of a terrorist attack, they would be required in certain cases to visit 
disaster scenes and assess the structural integrity of buildings. The 
budget request for DCRA would be to cover the necessary equipment that 
they would need, including for example, self contained breathing 
apparatus to permit them to enter a hazardous scenes. The remainder of 
the costs are for specialized training and supplies for addressing the 
extraordinary circumstances of a terrorist attack for which they are 
not currently equipped.
    Question. The City has requested $160,000 for the Department of 
Parks and Recreation. Please describe what this Department's role would 
be in a terrorist attack.
    Answer. The Department of Parks and Recreation (DPR) is responsible 
for running neighborhood-based programs and recreational facilities 
throughout the city. In the event of a terrorist attack or other 
cataclysmic emergency, the community facilities would be utilized as 
shelters or staging facilities. The budget for DPR would prepare the 
staff with the training and equipment they require to support our 
emergency response. For example, the funding request for DPR included 
800 MHz radios to ensure that appropriate communications devices would 
be in place in the event of an emergency.
    Question. The District of Columbia Public Schools have requested 
over $78 million in funding for security equipment and facilities 
upgrades--more than the combined requests of the Fire/EMS Department, 
the Metropolitan Police Department, the Division of Transportation, the 
Department of Health, and the Chief Medical Examiner's office. In the 
draft Emergency Response plan, however, DCPS's role is limited to 
providing school buses for transportation and temporary shelter at 
school facilities for the displaced families as well as giving disaster 
response training to students. Please explain how these activities 
justify a $78 million request.
    Answer. The District of Columbia Public Schools (DCPS) request 
represents an investment in prevention, not necessarily response. This 
large request was to enhance security technology such as x-ray machines 
at every school, as well as physical enhancements to building 
exteriors. You will note that this is consistent with the security 
request made by the Office of Property Management for a number of the 
District's largest government facilities. We considered it important to 
ensure the safety of the children in all of our schools.
                                 ______
                                 

                Questions Submitted to Chief Ronnie Few

    Question. The District has requested $6.6 million for various Fire/
EMS vehicles: 12 ambulances, 6 fire engines, 3 trucks, a Hazmat command 
vehicle, 6 response cars, and other motor vehicles. Some argue that 
this equipment could have, or should have, been purchased as part of 
the Department's normal operations and replacement schedule. Does the 
Department plan to use these vehicles to replace those that are already 
in service? If so, why didn't the Department make these purchases 
sooner?
    Answer. The Fire/EMS department does have a regular fleet 
maintenance program through which it regularly replaces its fleet. The 
vehicles that we have requested will give us the capability of 
expanding our resources, when necessary, in the event of a major 
catastrophe. The events of September 11 demonstrate the need for a 
surplus number of trucks for cataclysmic events. In the same way that 
the Department of Health needs a ``surge capacity'' in the event of an 
event that impacts large number of citizens, so too does the Fire 
Department. For example, in a large-scale disaster, we must transport 
extraordinary numbers of staff to the scene of the disaster, which we 
cannot do with only existing resources even including our reserve 
equipment. This request will be used to supplement, not supplant, our 
reserve replacement program.
    In addition, some of the vehicles we have requested are specialized 
equipment, such as the Mass Casualty Unit, that will be needed in the 
event of a major disaster. This unit will also be used on a more 
frequent basis to supplement our response to localized disasters, such 
as bus accidents, small building collapses, and multiple shootings. The 
vehicles in the emergency preparedness request therefore represent a 
net gain to the Department. We will continue our current fleet 
replacement schedule as planned.
    Question. The Fire/EMS Department has requested a large amount of 
specialized Hazmat equipment. Please describe in detail the 
Department's plans for deploying these resources. Does the Department 
play to equip every fire fighter and EMT with this equipment and, if 
so, does it have the storage facilities in all of the fire and EMS 
stations to hold this equipment until it is needed?
    Answer. Hazmat protective gear is classified as Level A, B, & C, 
with Level A offering the highest level of protection. Level A is an 
encapsulating suit with its own air supply. Level A equipment will be 
placed in four specialized units, in four quadrants of the city 
(Engines 12, 15, 2, and 24). The rest of the Hazmat equipment will be 
used to upgrade the protective gear of the remainder of our providers. 
All front line EMS and firefighting units will be issued personnel 
protective clothing and Self-Contained Breathing Apparatus (SCBA), 
which will outfit our providers to Level B. (All firefighters currently 
have SCBAs, but some of the funds will be used to purchase reserve 
equipment). This equipment will be carried on the apparatus and will be 
available for immediate use. At present, protection for EMS providers 
is at a level C, meaning that they have basic chemical protective 
clothing and filter masks. Although this offers some protection, it is 
not adequate protection for emergency medical workers who will 
certainly be in the center of the most horrific disasters.
                                 ______
                                 

             Question Submitted to Chief Charles H. Ramsey

    Question. The Metropolitan Police Department has requested funds to 
upgrade its protective equipment. How are you planning to distribute 
this equipment in an emergency? Do you plan to equip every officer or 
every patrol car with this protective gear?
    Answer. New gas masks are on order for all members of the 
Department. These new masks will be equipped with both chemical-
biological and chemical munitions filters. The masks will be 
distributed immediately upon receipt to all sworn and civilian members 
of the Department as part of their issued equipment, i.e., the members 
have the masks available for immediate use as part of their regular 
equipment.
    Initially, each Patrol Service Area vehicle will be equipped with 
Level C protective equipment. This includes the Tyvek suit, boots and 
gloves. One suit, pair of boots, and pair of gloves in each size (S-M-
L-XL) will be maintained in the vehicle, with a replacement inventory 
maintained by the Special Operations Division. This equipment will be 
immediately available for use in the event of an emergency.
    Ultimately, and as funding becomes available, it is the 
Department's intent to equip each sworn member with personal Level C 
protective equipment that will be carried and maintained with their 
issued equipment.
    Seventy-five (75) sets of Level B protective equipment have been 
issued to specially trained personnel assigned to the Special 
Operations and Forensic Services Divisions. Level B equipment is the 
same as Level C, with the addition of an external SCBA worn on the 
outside of the Tyvek suit. The equipment is issued to and maintained at 
the members' duty station and is immediately available for use in the 
event of an emergency.
    All members of the Explosive Ordnance Disposal Unit are equipped 
with Level A protective equipment. Level A includes a sealed suit, with 
an internal SCBA unit. The equipment is also maintained at the members' 
duty station and is immediately available for use.
                                 ______
                                 

               Question Submitted to Dr. Ivan C. A. Walks

    Question. The Department of Health and its staff have done 
extraordinary work during the ongoing anthrax crisis in the City. The 
City's emergency preparedness request for DOH was put together before 
the scope of the attacks was known. Given the experience over the last 
several weeks, is the current request still valid in the wake of the 
anthrax attacks?
    Answer. Our request included over $23 million for Department of 
Health resources, including on-site response equipment, a limited stock 
of pharmaceuticals, and containment facilities, among other things. The 
recent anthrax attacks demonstrated that in addition to supplies and 
equipment, vast amounts of human resources are necessary in the event 
of a biological incident. Should another event like the recent anthrax 
attack occurs, the District's challenge will be to identify similar 
levels of personnel to support an operation. We are reluctant, however, 
to include in a request for one-time funding, resources such as 
personal services, which would impose an ongoing cost on the city that 
we may not be able to support in out years. Thus, we think that the 
submission we made is still valid.
    I hope these responses answer the questions you have posed. Please 
fell free to contact me if you should require additional information.

                         CONCLUSION OF HEARING

    Senator Landrieu. The hearing is recessed.
    [Whereupon, at 12:04 p.m., Wednesday, November 14, the 
hearing was concluded, and the subcommittee was recessed, to 
reconvene subject to the call of the Chair.]

                                   - 

</pre></body></html>
